App. 1
APPENDIX A
COURT OF APPEALS OF OHIO
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA
ARNOLD BLACK,
Plaintiff-Appellee,
v.

No. 108958

DETECTIVE RANDY HICKS, ET AL.,
Defendants-Appellants.
-------------------------------------------------------------------------------------------------------------------------------

JOURNAL ENTRY AND OPINION
JUDGMENT: AFFIRMED
RELEASED AND JOURNALIZED:
August 6, 2020
-------------------------------------------------------------------------------------------------------------------------------

Civil Appeal from the
Cuyahoga County Court of Common Pleas
Case No. CV-14-826010
-------------------------------------------------------------------------------------------------------------------------------

Appearances:
Willa Hemmons, Director of Law, City of East
Cleveland, for appellants.
DiCello Levitt Gutzler, L.L.C., and Justin J.
Hawal and Robert F. DiCello, Mentor, for appellee.
Randy Hicks, pro se, for cross-claim defendantappellee.

App. 2
EILEEN T. GALLAGHER, A.J.:
{¶ 1} Defendants-appellants, city of East Cleveland and former East Cleveland Police Chief Ralph
Spotts (collectively referred as “appellants”) appeal a
judgment, rendered following a jury trial, in favor of
plaintiff-appellee, Arnold Black. Appellants claim the
following eleven errors:
1. In that defendant Randy Hicks was acting
as an arm of the state through his assignment
to a joint task force whose sole mission was to
interdict the violation of state drug laws, the
trial court lacked jurisdiction to hear any of
plaintiff ’s federal or state law claims.
2. The journal entry of 8/15/19 was inapposite of the 8/9/19 jury verdict inasmuch as it
deviated from said verdict which awarded
$15,000 in punitive damages only as to defendant Ralph Spotts with no award of compensatory damages.
3. Neither the city of East Cleveland nor
Chief Ralph Spotts (the city Defendants) may
held liable for the misconduct of defendant
Randy Hicks, as defendant Hicks was not
under the control and authority of these city
defendants at the time of his alleged misconduct.
4. Defendant Randy Hicks’s actions were
outside any scope and authority he might
have possessed as an East Cleveland police
officer as he was acting as an individual, and

App. 3
the city should have been able to offer rebuttal
evidence thereof.
5. The admission of Randy Hicks * * * [sic]
admissions and jury instructions violated the
previous court of appeals case no. 16-105248
with reference to maintenance of discovery as
of 5/10/16.
6. There was insufficient evidence to support the jury’s verdict and it was against the
manifest weight of the evidence.
7. The trial court erred when it found a Monell claim against the city.
8. The trial court erred to the prejudice of
defendant Ralph Spotts when it imputed supervisory liability to him for the malicious,
wanton, reckless action of Randy Hicks.
9. The surprise showing of Arnold Black’s
head scar from a 2015 surgery irreparably injured the defense and should have resulted in
a mistrial in that it was plain error.
10. The statute of limitations had run by
23:44 hours, April 28, 2014 time of the case refiling when, according to evidence, the alleged
precipitating incident occurred at 00:55 hours
on April 28, 2012, which is plain error.
11. Denial of criminal court State v. Black,
Cuyahoga C.P. No. CR-2-562242, finding that
probable cause existed as a matter of judicial
notice was due process violation.

App. 4
{¶ 2} We find no merit to the appeal and affirm
the trial court’s judgment.
I.

Facts and Procedural History

{¶ 3} On April 28, 2012, at approximately 10:00
p.m., Black was driving home from his mother’s house
when he was pulled over by East Cleveland Patrolman
Jonathan O’Leary. (Trial tr. 166-167; 218; 227.) Sergeant Randy Hicks had ordered O’Leary to stop Black’s
green truck because it resembled a green truck belonging to a suspected drug dealer. Hicks was a narcotics
detective in East Cleveland and was also a member of
a joint narcotics task force with the Cuyahoga County
Sheriff ’s Department. (O’Leary trial depo. tr. 54.)
{¶ 4} O’Leary told Black to get out of his vehicle,
handcuffed him, and escorted him to the back of his
truck. (O’Leary trial depo. tr. 8.) O’Leary’s patrol car
was parked behind Black’s vehicle with the lights activated. Black was sitting on his back bumper in front of
O’Leary’s patrol car when Hicks arrived on the scene.
Black testified that Hicks immediately began searching his car and removed the side panels from his truck.
Hicks did not find any narcotics in the truck and, after
brandishing his badge, began questioning Black about
who sells drugs in East Cleveland. (Trial tr. 86.) Black
replied that he did not know who sold drugs in the
city. Thereafter, Hicks became violent and repeatedly
struck Black’s face and head without provocation or
justification. (Trial tr. 93.) Hicks admitted at trial that
he struck Black several times until O’Leary came

App. 5
between them and stopped him. (Trial tr. 93-94.) Hicks
described Black as appearing “dazed” after the beating.
(Trial tr. 94; 232-234.) O’Leary testified that he believed his dash camera was operating throughout the
duration of the incident and captured the incident on
film. (O’Leary trial depo. 18.) Black and O’Leary both
testified that Hicks may have been under the influence of alcohol at the time of the incident because he
smelled of alcohol. (Trial tr. 291-292; O’Leary trial
depo. 73-74.)
{¶ 5} Hicks admitted that he called another officer to transport Black to the East Cleveland jail even
though he did not have probable cause to arrest him.
(Trial tr. 98.) Upon arriving at the jail, Black was
placed in a storage room that the police officers referred to as a “holding cell,” even though there was no
bed and no toilet in the room. (Trial tr. 238-239.) The
room contained a wooden bench, some storage lockers,
and cleaning supplies and was infested with cock
roaches. (Trial tr. 240-241.)
{¶ 6} Black remained in the storage room for four
days. At some point, an unknown officer entered the
room, gave Black a carton of milk, and allowed him to
use his cell phone to make a call. (Trial tr. 244-245.)
Black called his former fiancée, Eryka Bey and told her,
in a whisper, that he had been arrested and beaten and
was being held in the East Cleveland jail. (Trial tr.
190.) Bey went immediately to the jail and asked to see
Black. An officer told her she could not see him because
he was “under investigation.”

App. 6
{¶ 7} Black testified that on the fourth day following his arrest, a councilwoman came to the jail to
inquire about him because she had heard he had been
beaten while he was handcuffed and was being detained without probable cause in the city jail. Chief
Spotts accompanied the councilwoman during her visit
with Black in the storage room. (Trial tr. 272.) In
Black’s presence, the councilwoman told the chief that
she wanted to know what happened to Black and how
“at this time and age * * * he got beat up and put in a
closet.” (Trial tr. 274.) Thereafter, Black was placed in
a line of inmates, who were awaiting transport to the
county jail. (Trial tr. 271-274.) Later that day, Bey
picked Black up at the county jail and drove him home.
(Trial tr. 196-197.) According to Bey, Black’s head was
swollen like a “helmet” and he was acting fearful.
(Trial tr. 196-197.)
{¶ 8} In the weeks following the incident, Black
complained of headaches and developed vision problems. His mother and Bey also observed changes in his
personality. They described him as withdrawn and unwilling to leave the house due to fear of the police.
(Trial tr. 199-200, 201, 209, 253-254.) Black eventually
sought medical attention and required surgery to remove blood from his brain. (Trial tr. 204-206, 257-260.)
{¶ 9} Following the incident, O’Leary reported
Hicks to his superiors, including Spotts. (Trial depo. tr.
29-30.) O’Leary told Spotts that the dash camera video
would show Hicks beating Black while he was handcuffed. O’Leary also completed a “Form-M,” a report in
which O’Leary detailed Hicks’s actions with respect to

App. 7
Black. (O’Leary trial depo. tr. 66.) Yet, nobody from the
East Cleveland Police Department ever followed up
with O’Leary to investigate the incident, and the dashcamera video went missing. (Trial tr. 31; 33-34; 49.)
O’Leary testified that the department’s failure to take
action in response to the incident suggested that the
department intended to cover it up. (Trial tr. 33-34.)
O’Leary stated:
Q: Now, based on your experience, based on
your reference to notify supervisors, based on
the actual notifications that you gave to supervisors about what happened, does the
missing video and the inaction by the city and
chief – * * * lead you to believe * * * that the
chief ignored your information so they could
put the matter to rest without prosecuting Detective Hicks?
***
A: I don’t know what his intentions were,
but the appearance to me was that he probably wanted to put [it] to rest.
Q: So the missing video and inaction by the
city and chief leads you to believe, and do you
in fact, truly believe that the chief participated in a passive, do nothing cover up in this
case?
***
A: So you’re saying that because nothing
was ultimately done and – by anybody, basically, that there was no prosecution, was that

App. 8
a covert way to basically, hide this? It has that
appearance to me.
(O’Leary trial depo. tr. 33-34.)
{¶ 10} Hicks similarly testified that he propounded discovery to appellants, requesting any police
reports, O’Leary’s Form-M complaint, the dash-camera
video, booking documents, jail records, and his own
personnel file, and the city informed him that “[t]hey
didn’t have [them] anymore” and that “they were
gone.” (Trial tr. 102-103.)
{¶ 11} Hicks testified that there was a culture of
violence in the East Cleveland Police Department. He
explained that as part of his on-the-job training, he
was taught to use violence against citizens in order to
obtain information from them and to instill fear. (Trial
tr. 83-84, 87.) Hicks explained that when he was a patrol officer, he and Spotts were part of group known as
the “jump-out boys.” (Trial tr. 90.) Whenever they encountered citizens gathered on a sidewalk, they would
jump out of their cars, throw the citizens on the
ground, and beat or “boot” them. (Trial tr. 90.) Hicks
was also taught to “clear the corners” by slamming
people against police cars, searching them for drugs
without probable cause, and if they did not find any
drugs, making it “inconvenient for them.” (Trial tr. 91.)
The officers “made it inconvenient” for citizens by
“strip[ping] them down in the middle of winter” and
making them stand naked in the cold. (Trial tr. 91.)
They stripped people naked on a “daily” basis. (Trial tr.
91.) Hicks testified that he would not have been

App. 9
promoted if he had refused to engage in these violent
tactics. (Trial tr. 95.)
{¶ 12} Spotts was the chief of police in the East
Cleveland Police Department at the time of Black’s arrest. (O’Leary trial depo. tr. 22; trial tr. 109.) Hicks testified that as the “top law enforcement officer” in East
Cleveland, Spotts was responsible for establishing policies and procedures for the jail, criminal investigations, and “every aspect” of the police department.
(Trial tr. 106, 110.) Under Spotts’s supervision, it was
well known that there was a “right way, a wrong way,
and the East Cleveland way.” (O’Leary trial depo tr. 34,
Trial tr. 106.) The “East Cleveland way” included a lack
of meaningful oversight by supervisors, routine failures to report violations of police procedures, and the
use of violence against citizens and other officers.
(O’Leary trial depo tr. 36-39, Trial tr. 87-93.) As a result, violence was a custom and practice within the city
when arresting people at traffic stops or when citizens
were not compliant. (Trial tr. 103-104, 146-147.) According to Hicks, individuals, who posed a threat the
city’s civil liability, were also routinely treated with violence, arrested without probable cause, and placed in
the jail. (Trial tr. 105.)
{¶ 13} As a result of his treatment by Hicks and
other members of the East Cleveland Police Department, Black filed a complaint on April 28, 2014, asserting claims for malicious prosecution, abuse of process,
spoliation, battery, false imprisonment, supervisory liability, reckless, wanton or willful conduct pursuant to
R.C. 2921.52, civil conspiracy, and a claim for violations

App. 10
of Black’s Fourth, Fifth, and Fourteenth Amendments
of the United States Constitution under 42 U.S.C.
1983. The prayer for relief requested compensatory
and punitive damages. Appellants filed an answer to
Black’s complaint and a cross-claim against Hicks, alleging that he acted outside the scope of his authority
as an East Cleveland police officer. Hicks, acting pro se,
filed an answer to Black’s complaint and appellants’
cross-claim.
{¶ 14} Black propounded discovery to appellants
in August and September 2014. Appellants failed to
respond to the discovery requests, and Black filed a
motion in March 2016, to preclude appellants from offering evidence and witnesses not disclosed in discovery. The trial court issued an order, dated April 19,
2016, requiring appellants to respond to Black’s discovery requests on or before May 2, 2016. The trial court
warned that failure to respond to the discovery requests would result in sanctions, including the exclusion of any evidence or witnesses not disclosed in
discovery.
{¶ 15} The next day, on April 20, 2016, the trial
court vacated its April 19, 2016 order and set a hearing
to show cause to afford appellants the opportunity to
explain why they failed to respond to Black’s discovery
requests. The court’s order again warned, however,
that failure to show cause would result in sanctions,
including an order precluding appellants from offering
evidence and witnesses at trial. Instead of appearing
for the show cause hearing, appellants filed a notice
of appeal, challenging the trial court’s April 20, 2016

App. 11
order. This court promptly dismissed the appeal for
lack of a final, appealable order. Black v. Hicks, 8th
Dist. Cuyahoga No. 104453 (May 10, 2016).
{¶ 16} Meanwhile, the trial court issued an order
addressing appellants’ failure to respond to Black’s
discovery requests. In a judgment entry, dated May 9,
2016, the trial court denied Black’s motion for default
judgment, but granted his motion to preclude appellants from offering evidence and witnesses at trial that
were not disclosed during discovery. The trial court
concluded that appellants failed to respond to Black’s
requests for discovery, failed to file a response to
Black’s motion to exclude evidence, and failed to provide a reason or excuse for their failure to respond to
discovery. On that same day, the trial court issued
another judgment entry granting Black’s motions in
limine to exclude character evidence, evidence regarding the East Cleveland defendants’ inability to satisfy
a judgment, and evidence in support of affirmative defenses. The trial court also granted Black’s request to
have admissions deemed admitted against Hicks.
{¶ 17} Thereafter, appellants filed another notice
of appeal, challenging the trial court’s May 9, 2016 order, and this court again dismissed the appeal for lack
of a final, appealable order. See Black v. Hicks, 8th Dist.
Cuyahoga No. 104461 (May 24, 2016). Appellants filed
a notice of appeal and a memorandum in support of
jurisdiction in the Ohio Supreme Court, challenging
this court’s dismissal of their appeal in Black II. See
Black v. Hicks, Ohio Supreme Court Case No. 20160805. The Ohio Supreme Court declined to accept

App. 12
jurisdiction, and the case was remanded to the trial
court.
{¶ 18} While the case was pending in the Ohio
Supreme Court, the trial court conducted an ex parte
jury trial that began on May 25, 2016. The jury returned a verdict in favor Black and awarded Black
$10,000,000 in compensatory damages and $12,000,000
in punitive damages; $1,000,000 against O’Leary for
false arrest and violation of his civil rights under 42
U.S.C. 1983, and $11,000,000 against Spotts for spoliation and supervisory liability.
{¶ 19} Appellants appealed the judgment, and
this court dismissed the appeal for lack of a final, appealable order because judgment was not entered on
all claims. Black v. Hicks, 8th Dist. Cuyahoga No.
104613 (Nov. 8, 2016). Thereafter, Black voluntarily
dismissed the wanton, reckless and willful conduct,
and civil conspiracy claims with prejudice, and appellants appealed. This court sua sponte dismissed the appeal due to appellants’ failure to file an appellate brief.
See Black v. Hicks, 8th Dist. Cuyahoga No. 105248
(Mar. 21, 2017). This court later granted a motion to
reinstate the appeal, and ultimately reversed the trial
court’s judgment on grounds that the trial court lacked
jurisdiction to proceed with a jury trial while the matter was pending on appeal. Black v. Hicks, 8th Dist.
Cuyahoga, 2018-Ohio-2289, 114 N.E.3d 365, at ¶ 5152. This court remanded the case to the trial court to
continue from “the state of the proceeding as it existed
on May 10, 2016.” Id. at ¶ 52.

App. 13
{¶ 20} On remand, the trial court issued another
ruling on appellants’ failure to respond to Black’s discovery requests. The court’s order, dated April 5, 2019,
precluded appellants from offering evidence and witnesses that were not disclosed during discovery. The
ruling effectively precluded appellants from presenting a case-in-chief. The court also issued an order that
Black’s requests for admissions were deemed admitted. (See journal entry dated Apr. 5, 2019.)
{¶ 21} The trial court conducted a second jury
trial in August 2019. Although appellants were precluded from presenting a case-in-chief, they were
present to cross-examine Black’s witnesses and participate in the trial. The jury returned a verdict in favor
of Black and awarded compensatory damages against
all defendants, jointly and severally, in the amount of
$20,000,000, punitive damages against Hicks in the
amount of $15,000,000, and punitive damages against
Spotts in the amount of $15,000,000. Appellants now
appeal the trial court’s judgment.
II.

Law and Analysis
A.

Jurisdiction

{¶ 22} In the first assignment of error, appellants
argue the trial court lacked jurisdiction to hear Black’s
complaint. They assert that, under R.C. Chapter 2743,
the Ohio Court of Claims rather than the common
pleas court had exclusive jurisdiction over Black’s
claims because his claims were made against the state.
Appellants allege Hicks and the city of East Cleveland

App. 14
were acting as an “arm of the state” during the relevant time period.
{¶ 23} Appellants never raised this jurisdictional
issue in the trial court. The failure to timely advise a
trial court of a possible error, whether by objection or
otherwise, generally results in a forfeiture of the issue
for purposes of appeal. Goldfuss v. Davidson, 79 Ohio
St.3d 116, 121, 679 N.E.2d 1099 (1997). However, the
question of a court’s subject matter jurisdiction may be
raised at any time – even after judgment or on appeal.
Vilk v. DiNardo, 8th Dist. Cuyahoga No. 103755, 2016Ohio-5245, ¶ 10, citing Escada Internatl. v. Eurocargo
Express, 8th Dist. Cuyahoga No. 80761, 2002-Ohio4035, ¶ 17. Therefore, appellants’ failure to raise this
jurisdictional question in the trial court does not prevent us from considering it on appeal.
{¶ 24} “The court of claims has exclusive, original
jurisdiction over civil actions against the state for
money damages that sound in law.” Young v. Ohio State
Univ. Hosps., 2017-Ohio-2673, 90 N.E.3d 234, ¶ 13
(10th Dist.), citing R.C. 2743.03(A)(1); see also Cleveland v. Ohio Bureau of Workers’ Comp., Slip Opinion
No. 2020-Ohio-337. R.C. 2743.01(A) defines the term
“state” for purposes of the Court of Claims’ jurisdiction
and states:
“State” means the state of Ohio, including, but
not limited to, the general assembly, the supreme court, the offices of all elected state officers, and all departments, boards, offices,
commissions, agencies, institutions, and other

App. 15
instrumentalities of the state. “State” does not
include political subdivisions.
{¶ 25} R.C. 2743.01(B) distinguishes political
subdivisions from state entities and defines the term
“political subdivisions” as “municipal corporations,
townships, counties, school districts, and all other bodies corporate and politic responsible for governmental
activities only in geographic areas smaller than that of
the state to which the sovereign immunity of the state
attaches.” See also R.C. 2744.01(F).
{¶ 26} East Cleveland is a municipal corporation,
and appellants are responsible for governmental activities within the city. R.C. 2744.01(C)(2)(a) provides that
a municipal corporation’s “governmental functions” include, among other things, “[t]he provision or nonprovision of police * * * services or protection.” Appellants
are, therefore, members of a political subdivision and
not agents of the state. Therefore, the Cuyahoga
County Court of Common Pleas rather than the Ohio
Court of Claims has subject matter jurisdiction over
Black’s claims against them.
{¶ 27}
B.

The first assignment of error is overruled.
Joint and Several Liability

{¶ 28} In the second assignment of error, appellants argue the trial court erred in imposing joint and
several liability for compensatory damages against
Spotts. They argue the imposition of joint and several liability against Spotts was not consistent with

App. 16
the jury’s verdict, which awarded punitive damages
against Spotts individually but did not award compensatory damages individually against him.
{¶ 29} However, the jury determined that Black
was entitled to compensatory damages in the amount
of $20,000,000. In the general verdict form, the jury
awarded Black a total of $50,000,000 in damages.
The breakdown of the jury’s calculation of total damages is set forth in interrogatory No. 10, wherein the
jury determined that Black was entitled to a total of
$20,000,000 in compensatory damages and awarded
punitive damages in the amount of $15,000,000
against Hicks and $15,000,000 against Spotts for total
of $50,000,000.
{¶ 30} The general verdict form does not specify
how the jury determined that Black was entitled to
$20,000,000 in compensatory damages. However, jury
interrogatory No. 7 explains the jury’s determination
of the total amount of compensatory damages was composed of findings made in other jury interrogatories.
Jury interrogatory No. 7 states, in relevant part:
If you answered yes to any one or more of the
sets of Interrogatories 1 and 1A; and/or 2 and
2A; and/or 3 and 3A; and/or 4 and 4A; and/or
5 and 5A; and/or 6 and 6A; state the total
amount of compensatory damages you award
Plaintiff Arnold Black:
{¶ 31} Interrogatory Nos. 5 and 6 specifically refer to Spotts’s liability for compensatory damages. Jury
interrogatory No. 5 states, in relevant part:

App. 17
Fifth Claim: Supervisory Liability – Chief
Ralph Spotts
Has Plaintiff Arnold Black proven by a preponderance of the evidence that the deprivation of his constitutional rights took place at
the direction or with the knowledge, acquiescence, or consent of Defendant Chief Spotts?
Circle your answer in ink: Yes or No
The jury circled the word “yes,” indicating that Black’s
constitutional rights were violated either at Spotts’s
direction or with his knowledge, acquiescence, and consent. Jury interrogatory No. 5A makes an additional
finding regarding Spotts’s contribution to Black’s injuries and states, in relevant part:
Has Plaintiff Arnold Black proven by a preponderance of the evidence that the conduct
of Chief Ralph Spotts was a proximate cause
of Plaintiff Arnold Black’s injuries?
Circle your answer in ink: Yes or No
Again, the jury circled the word “yes,” indicating that
Spotts’s conduct was a proximate cause of Black’s injuries.
{¶ 32} Jury interrogatory No. 6 also charges
Spotts with liability for Black’s injuries and states, in
relevant part:
Has Plaintiff Arnold Black proven by a preponderance of the evidence that Defendant
city of East Cleveland, through its policy
makers, the chief of police and/or the mayor,

App. 18
established or promoted policy(s), practice(s),
or custom(s) that deprive Plaintiff Arnold
Black of his constitutional rights?
Circle or your answer in ink: Yes or No
The jury circled the word “yes,” indicating the evidence
proved, by preponderance of the evidence, that his constitutional rights were violated as a result of policies,
practices or customs promoted by Spotts, the chief of
police, and/or the mayor of East Cleveland. Although it
is theoretically possible the jury could have circled
“yes” due to the mayor’s activities and would not have
circled “yes” due to Spotts’s activities, appellants did
not object to the interrogatory. The failure to object to
an interrogatory constitutes a waiver of the alleged error on appeal. Druzin v. S.A. Comunale Co., 8th Dist.
Cuyahoga No. 102674, 2015-Ohio-4699, ¶ 17, citing
Boewe v. Ford Motor Co., 94 Ohio App.3d 270, 279, 640
N.E.2d 850 (8th Dist.1992).
{¶ 33} In any case, the jury’s response to jury interrogatory No. 6 is duplicative of their answers to jury
interrogatory Nos. 5 and 5A, wherein the jury found
Spotts liable for Black’s injuries. Jury interrogatory
No. 7 asked the jury to determine the amount of damages to which Black was entitled as compensation for
those injuries, which the jury concluded were caused,
at least in part, by Spotts’s conduct. Thus, despite appellants’ argument to the contrary, the jury awarded
compensatory damages against Spotts.
{¶ 34} Moreover, Ohio law recognizes a modified form of joint and several liability that limits a

App. 19
plaintiff ’s ability to recover the full amount of compensatory damages for any one of multiple tortfeasors to
the percentage of liability found against each defendant. See R.C. 2307.22. Despite the law allowing a modified form of joint and several liability based on each
defendant’s proportionate share of the liability, none of
the jury interrogatories asked the jury to determine
each defendant’s proportionate share of the liability for
compensatory damages in this case. Therefore, the defendants are jointly and severally liable for the full
amount of the compensatory damages.
{¶ 35} Finally, appellants assert that Spotts cannot be held personally liable for compensatory damages because the city is required by R.C. 2744.07(B)(1)
to indemnify him and hold him harmless. However,
there are exceptions to the indemnification provided in
R.C. 2744.07(B)(1), and this issue was not litigated in
the trial court to determine whether any of the exceptions apply. Having failed to raise this argument in the
trial court, it is forfeited for purposes of appeal. Goldfuss, 79 Ohio St.3d 116, at 121, 679 N.E.2d 1099.
{¶ 36}
ruled.

The second assignment of error is over-

C.

Vicarious Liability

{¶ 37} In the third assignment of error, appellants argue the trial court erred in finding them liable
for Hicks’s misconduct. In the seventh assignment of
error, appellants again argue the trial court erred in
finding them vicariously liable for Hicks’s misconduct,

App. 20
in violation of the United States Supreme Court’s decision in Monell v. New York City Dept. of Soc. Servs.,
436 U.S. 658, 98 S.Ct. 2018, 56 L.Ed.2d 611 (1978). We
discuss these assigned errors together because they
are interrelated.
{¶ 38} As previously stated, Black brought his
complaint against Hicks and appellants pursuant to 42
U.S.C. 1983, which states, in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress * * * .
{¶ 39} To prevail on a 1983 claim, a plaintiff must
prove (1) that a right secured by the United States Constitution or laws of the United States was deprived, and
(2) that the defendant committed the violation while
acting under color of state law. Kalvitz v. Cleveland,
N.D. Ohio No. 1:16 CV 748, 2017 U.S. Dist. LEXIS
217570 (Oct. 16, 2017), citing Flagg Bros. v. Brooks, 436
U.S. 149, 155, 98 S.Ct. 1729, 56 L.Ed.2d 185 (1978).
{¶ 40} Appellants contend that Hicks acted outside the scope of his authority as an East Cleveland
police officer and was, therefore, not acting under color
of state law at the time of the events giving rise to this
case. They argue he was not acting under color of state

App. 21
law because he was off duty, wearing plain clothes, and
was driving an unmarked car at the time of Black’s arrest. However, “[i]t is the nature of the act performed,
not the clothing of the actor or even the status of being
on duty, or off duty, which determines whether the
officer acted under color of state law.” Stengel v.
Belcher, 522 F.2d 438, 441 (6th Cir. 1975). In determining whether a police officer was acting under color of
law, the court must consider the nature of the act performed by the officer as well as “whether he flashed his
badge, announced himself as an officer, or arrested or
tried to arrest anyone.” Kalvitz at *15-16.
{¶ 41} Hicks testified that he brandished his
badge when he arrested Black. (Trial tr. 86-87.) Hicks
further stated that although he was not technically on
duty, he acted according to his authority as a police officer. (Trial tr. 125.) He testified: “If I was going to look
for something, I was on duty. Once I’m in the city, I’m
on duty.” (Trial tr. 125.) Moreover, Hicks used his authority as a supervisor to order O’Leary to stop Black’s
vehicle and place him under arrest. (Trial tr. 106, 108,
111; O’Leary trial depo. tr. 6-8.) Referring to Hicks,
O’Leary testified, in relevant part:
Q: * * * And his actions that night, when you
say he was there for work, you mean his actions that night were interpreted by you as actions undertaken in an official police capacity.
A:

Yes. * * * he was acting as a policeman.

(O’Leary trial depo. tr. 7.) Therefore, the evidence
established that Hicks was acting under color of

App. 22
state law when he arrested, assaulted, and detained
Black.
{¶ 42} Appellants nevertheless assert that Hicks
was acting under the authority and control of the
Cuyahoga County Sheriff ’s Department rather than as
an East Cleveland police officer when he committed
the acts giving rise to this case. However, Hicks testified that he assisted the sheriff ’s department “when
they called,” but was paid by East Cleveland. (Trial
tr. 126.) He explained: “[the] [s]heriff ’s department
doesn’t pay me. I work for the [c]ity of East Cleveland.”
(Trial tr. 126.) Although Hicks collaborated with Cuyahoga County Sheriff ’s Department at times, the evidence showed he was acting in his capacity as an East
Cleveland police officer at the time he arrested and detained Black.
{¶ 43} Furthermore, the evidence showed that
Hicks used his authority as a police officer to have
Black arrested and taken into police custody without
probable cause. (Trial tr. 98.) Hicks testified:
Q: * * * On the night this occurred, you directed the men to drive Arnold [Black] to the
station, correct?
A:

Correct.

Q: And he had done nothing, by law, that required incarceration, isn’t that right?
A:

Correct.

***

App. 23
Q: He had done nothing at the time that required being detained or held for investigative
purposes, fair?
A:

Correct.

(Trial tr. 98-99.) The evidence established that Black
was seized and his liberty was restrained in violation
of the Fourth Amendment to the United States Constitution. See State v. Mays, 119 Ohio St.3d 406,
2008-Ohio-4539, 894 N.E.2d 1204, ¶ 7 (“The Fourth
Amendment to the United States Constitution and
Section 14, Article I of the Ohio Constitution guarantee the right to be free from unreasonable searches and
seizures.”).
{¶ 44} The Fourth Amendment also protects individuals from government actors who use excessive
force in the course of an arrest or other seizure. Jones
v. Elyria, 947 F.3d 905 (6th Cir. 2020); Graham v. Connor, 490 U.S. 386, 395, 109 S. Ct. 1865, 104 L.Ed.2d 443
(1989). In determining whether a police officer used excessive force, courts consider “ ‘(1) the severity of the
crime at issue, (2) whether the suspect poses an immediate threat to the safety of the officers or others, and
(3) whether [the suspect] is actively resisting arrest or
attempting to evade arrest by flight.’ ” Id. at 917, quoting Estate of Hill v. Miracle, 853 F.3d 306, 312-313 (6th
Cir. 2017).
{¶ 45} As previously stated, Hicks testified that
the East Cleveland police had no legitimate reason for
stopping and detaining Black since Black had not committed a crime. (Tr. 91.) Yet, Hicks repeatedly struck

App. 24
Black’s head while Black was handcuffed simply because Black denied having knowledge of any drug dealing in East Cleveland. Hicks stated:
Q:

And he told you he didn’t know, didn’t he?

A:

Yes.

Q: And when that didn’t satisfy you, you
struck him, isn’t that right?
A:

Correct.

Q: You struck him repeatedly, isn’t that
right?
A:

Correct.

Q: And when you were done striking him,
O’Leary got between the two of you, isn’t that
right?
A:

From what I remember, yes.

(Trial tr. 92-93.) When asked how Black appeared after
being hit, Hicks described him as being “dazed.” (Trial
tr. 94.) Since Black was handcuffed, he did not pose a
threat to any of the officers, and there is no evidence
that he resisted arrest. Therefore, there was evidence
that Hicks used excessive force when he arrested
Black.
{¶ 46} Local governments are generally not liable under 42 U.S.C. 1983 for injuries caused by their
employees or agents pursuant the theory of respondeat
superior. Miller v. Shaker Hts, N.D. Ohio No. 1:19 CV
1080, 2020 U.S. Dist. LEXIS 19200 (Feb. 5, 2020), citing
Monell, 436 U.S. 658, 98 S. Ct. 2018, 56 L.Ed.2d 611 at

App. 25
691. However, in Monell, the United States Supreme
Court held that a local government is liable for the acts
of its employee or agent when the employee or agent
causes an injury while acting pursuant to the “government’s policy or custom, whether made by its lawmakers or by those whose edicts or acts may fairly be said
to represent official policy * * * .” Id. at 694.
{¶ 47} To prevail on a Monell claim, the plaintiff
must show (1) the existence of a clear and persistent
pattern of illegal activity, (2) notice or constructive notice on the part of the defendant, (3) the defendant’s
tacit approval of the unconstitutional conduct, such
that their deliberate indifference in their failure to act
can be said to amount to an official policy of inaction,
and (4) that the defendant’s custom was the “moving
force” or direct causal link in the constitutional deprivation. Kalvitz, N.D. Ohio No. 1:16 CV 748, 2017 U.S.
Dist. LEXIS 217570, at * 23, citing Thomas v. Chattanooga, 398 F.3d 426, 429 (6th Cir.2005).
{¶ 48} The evidence at trial demonstrated that
the East Cleveland Police Department had an unwritten custom and practice of using violence and arrests
to intimidate people. Hicks testified that “[v]iolence
was a custom and practice * * * when arresting people
at traffic stops.” (Trial tr. 104.) He also stated that East
Cleveland police officers routinely assaulted citizens in
the city:
A: I’m not going to sit here and say I didn’t
hit Arnold Black. But that’s the way I was

App. 26
brought up working there, by not just Chief
Spotts.
There was other officers, too, that were older
and senior to me, just like I was senior to
O’Leary. This is nothing new. It’s been going
on before I was there, going on when Chief
Spotts was a patrolman. This is nothing new
in East Cleveland. This was just the way it
was.
(Trial tr. 84.)
{¶ 49} Hicks later stated that he was a member
of “the Street Crimes Unit” in East Cleveland, which
was known as the “jump-out boys.” (Trial tr. 90.) Hicks
and other “jump-out boys” would ride through the
streets, chase drug dealers, “jump out at them,” and
“beat” and “boot” them. (Trial tr. 90.) According to
Hicks, officers were instructed to “clear the corners,” by
holding citizens against police vehicles, searching
them for drugs without probable cause, and if they did
not find any drugs, to “make it inconvenient for them”
by stripping them naked in both winter and summer.
(Trial tr. 91.) They used these tactics “daily” to find
drugs in the city. (Tr. 91.)
{¶ 50} Hicks further testified that people who
posed a threat to the city’s civil liability were routinely
treated with violence, detained in the jail, and “made
to wait.” (Trial tr. 104-105.) Hicks testified that as the
chief of police, Spotts was the “top law enforcement officer” in charge of establishing policies and procedures
throughout the East Cleveland Police Department and

App. 27
within the jail.1 (Trial tr. 106, 109-110.) As a supervisor,
Hicks was responsible for ensuring that lower ranking
police officers followed the policies and procedures.
(Trial tr. 108.) Both Hicks and O’Leary acknowledged
that East Cleveland had its own unique policies, stating there was a right way, a wrong way, and the “East
Cleveland way.” (O’Leary trial depo. tr. 34, trial tr. 106.)
Indeed, officers were rewarded with promotions for following the “East Cleveland way,” and Hicks testified
that he probably would not have been promoted if he
had not followed these policies. (Trial tr. 95.) The unrefuted evidence demonstrated that Black was assaulted
and detained without probable cause pursuant to a
longstanding policy within the East Cleveland Police
Department. Therefore, there was competent, credible
evidence to support Black’s Monell claim.
{¶ 51} The third and seventh assignments of error are overruled.
D.

Rebuttal Evidence

{¶ 52} In the fourth assignment of error, appellants argue the trial court erred in precluding them
from introducing portions of O’Leary’s trial deposition
testimony as well as a police report written by O’Leary
as “rebuttal” evidence at trial. Appellants argue the
1

Appellants observe in their appellants’ brief that Hicks
aligned himself with Black at trial in a joint “search” for “deeper
pockets.” (Appellants’ brief at x.) However, O’Leary’s testimony
corroborated Hicks’s testimony that he assaulted, arrested, and
detained Black without probable cause pursuant to policies of the
East Cleveland Police Department at that time.

App. 28
evidence would have shown that small amounts of cocaine and marijuana were found in Black’s car, despite
his claim that the police lacked probable cause to arrest him. The trial court excluded the evidence because
it was not produced pursuant to Black’s discovery requests.
{¶ 53} The admission of rebuttal evidence rests
within the sound discretion of the trial court. In re
Sadiku, 139 Ohio App.3d 263, 267, 743 N.E.2d 507 (9th
Dist.2000). An abuse of discretion implies a decision
that is unreasonable, arbitrary, or unconscionable.
State ex rel. DiFranco v. S. Euclid, 144 Ohio St.3d 571,
2015-Ohio-4915, 45 N.E.3d 987, ¶ 13. And, even if a
trial court abuses its discretion, the judgment will not
be disturbed “unless the abuse affected the substantial
rights of the adverse party or is inconsistent with substantial justice.” Beard v. Meridia Huron Hosp., 106
Ohio St.3d 237, 2005-Ohio-4787, 834 N.E.2d 323, ¶ 20.
{¶ 54} Rebuttal evidence is evidence offered to
“explain, refute, or disprove new facts introduced into
evidence by the adverse party; it becomes relevant only
to challenge the evidence offered by the opponent, and
its scope is limited by such evidence.” State v. McNeill,
83 Ohio St.3d 438, 446, 700 N.E.2d 596 (1998).
{¶ 55} However, the trial court also has discretion to exclude evidence that was not produced pursuant to a timely request for discovery. Civ.R. 37(B)(1)
authorizes the court to impose sanctions for failure to
comply with discovery requests, including, but not limited to, orders:

App. 29
(a) Directing that the matters embraced in
the order or other designated facts shall be
taken as established for purposes of the action
as the prevailing party claims;
(b) Prohibiting the disobedient party from
supporting or opposing designated claims or
defenses, or from introducing designated matters in evidence;
***
(f ) Rendering a default judgment against
the disobedient party[.]
{¶ 56} When imposing a discovery sanction, the
trial court must impose the least severe sanction that
is consistent with the purpose of the rules of discovery.
Lakewood v. Papadelis, 32 Ohio St.3d 1, 511 N.E.2d
1138 (1987), paragraph two of the syllabus. When issuing discovery sanctions, the Ohio Supreme Court has
held that “the trial court should weigh the conduct of
the party offering [evidence] along with the level of
prejudice suffered by the opposing party attributable
to the discovery violation, in order to determine the
appropriate sanction.” Savage v. Correlated Health
Servs., 64 Ohio St.3d 42, 55, 591 N.E.2d 1216 (1992).
And, because the exclusion of reliable and probative
evidence is such a severe sanction, it should only be
imposed when necessary to enforce willful noncompliance or to prevent unfair surprise. Nickey v. Brown, 7
Ohio App.3d 32, 34, 454 N.E.2d 177 (9th Dist.1992).
{¶ 57} In August 2014, Black served interrogatories and requests for production of documents on

App. 30
appellants, seeking, among other things, the dashcamera video of Black’s arrest, police reports and
other documents concerning Black’s arrest and criminal charges, booking records, jail records, inspection
of any drug-related evidence allegedly seized at the
scene of his arrest, and the personnel files of Hicks
and O’Leary. Appellants never responded or produced
a single piece of evidence. Indeed, they reported that
all of these items were “gone” or destroyed. (Trial tr.
102-103.)
{¶ 58} In April 2016, the trial court issued an order requiring appellants to appear and show cause as
to why they had not complied with Black’s discovery
requests. The order warned that failure to show cause
would result in sanctions as provided in Civ.R. 41 and
37, “including precluding defendants from offering at
trial evidence, witnesses, argument or comment regarding the evidence and witnesses they failed to so
produce.” (Journal entry Apr. 20, 2016.) It is not clear
from the docket whether the court held the show cause
hearing. However, following the delay caused by multiple interlocutory appeals, the trial court ultimately
issued an order, dated April 5, 2019, granting a motion
in limine to preclude appellants from presenting any
evidence not disclosed pursuant to Black’s discovery
requests. The journal entry indicates that appellants
not only failed to respond to any discovery during the
five years that the case was pending, but that they also
failed to respond to the motion in limine.
{¶ 59} Despite having previously represented that
none of the requested discovery existed, appellants

App. 31
attempted to circumvent the trial court’s order by
filing a motion titled, “Defense motion for discovery
update from plaintiff with defendants’ archival data
attached.” Attached to the motion, appellants produced, for the first time, selective documents purported
to be a police report, a laboratory report, and a release
receipt, all of which Black had requested five years earlier and none of which had been provided. Appellants
did not provide any of the other requested documents
or information, and trial was scheduled to take place
within the next two months. Black moved to strike the
attachments from the record. Appellants failed to respond to Black’s motion, and the trial court granted it
as unopposed.
{¶ 60} Following the court’s discovery rulings,
appellants attempted to introduce a police report
O’Leary had made in connection with Black’s arrest
during the videotaped trial deposition of O’Leary.
The trial court later struck those portions of the deposition that violated the previously imposed discovery sanctions. Appellants now contend the trial court
abused its discretion by not allowing them to produce
O’Leary’s police report and his testimony regarding
the subject of the report.
{¶ 61} However, appellants’ failure to produce
the requested discovery denied Black the opportunity
to conduct discovery depositions of the authors and/or
custodians of the documents to determine the truth of
the information contained therein. Black was also denied the opportunity to inspect the evidence allegedly
seized at the scene of the arrest to confirm the truth of

App. 32
the information contained in the alleged police report.
Despite appellants’ characterization of these items as
“rebuttal evidence,” they are not rebuttal evidence;
they are materials that should have been produced
years ago when they were requested during the course
of pretrial litigation. Exclusion of these items was warranted by appellants’ utter failure to comply with
Black’s discovery requests.
{¶ 62}
ruled.

The fourth assignment of error is over-

E.

Jury Instructions

{¶ 63} In the fifth assignment of error, appellants
argue the trial court erred by instructing the jury that
the requests for admissions propounded on appellants
were conclusively established. The trial court issued an
order, dated May 26, 2016, granting Black’s motion to
have the admissions deemed admitted. Appellants argue this motion was a nullity because the court issued
it while an appeal was pending and the court was without jurisdiction to make such a ruling.2

2

Appellants also complain that the trial court lacked jurisdiction to dismiss appellants’ cross-claim against Hicks due to a
pending appeal. Although the trial court initially entered a judgment dismissing appellants’ cross-claim against Hicks on July 7,
2016, while an appeal was pending, the court later issued another
judgment entry dismissing the cross-claim on August 12, 2019.
The court had jurisdiction to issue the dismissal on August 12,
2019, because there was no appeal pending. Appellants have not
provided any argument or citations to legal authority challenging
the propriety of the court’s dismissal of its cross-claim.

App. 33
{¶ 64} However, appellants failed to object to the
jury instructions at trial. (Trial tr. 335-336, 416.) The
failure to object to jury instructions before the jury
retires to consider its verdict constitutes a waiver of
the argument for appeal. Maynor v. Ewings, 8th Dist.
Cuyahoga No. 83248, 2004-Ohio-5033, ¶ 12; Civ.R.
51(A). An appellate court may nevertheless recognize
waived error if it rises to the level of plain error. Goldfuss, 79 Ohio St.3d 116, 679 N.E.2d 1099, at syllabus.
However,
[i]n appeals of civil cases, the plain error doctrine is not favored and may be applied only
in the extremely rare case involving exceptional circumstances where error, to which
no objection was made at the trial court, seriously affects the basic fairness, integrity,
or public reputation of the judicial process,
thereby challenging the legitimacy of the underlying judicial process itself.
Id. We find no error, much less plain error, in the trial
court’s charge to the jury in this case.
{¶ 65} Black served Hicks with requests for admissions on September 4, 2014. Hicks never responded
to them. Under Civ.R. 36(A), requests for admissions
are self-executing; if a party fails to respond to a request or an admission, the matter is automatically
deemed admitted and no further action is required by
the party requesting it. Riddick v. Taylor, 8th Dist.
Cuyahoga, 2018-Ohio-171, 105 N.E.3d 446, ¶ 22, citing
Smallwood v. Shiflet, 8th Dist. Cuyahoga No. 103853,
2016-Ohio-7887, ¶ 18.

App. 34
{¶ 66} The trial court charged the jury with respect to admissions, in relevant part, as follows:
Admissions. Defendant Supervisor Detective
Hicks has admitted certain facts relevant to
this case.
Mr. Black, the plaintiff, is not required to offer
any further evidence to prove the following
matters which are admitted by Detective
Hicks, and which are conclusively established.
(Trial tr. 429.) The trial court then proceeded to read
the admissions into the record, which included the
facts that (1) Hicks repeatedly struck Black in the face
and head during the traffic stop while Black was handcuffed, (2) Hicks had no legitimate reason to strike
Black and did so according to department practices
and training, (3) there was a customary use of violence
in the East Cleveland Police Department, (4) Hicks
caused physical harm to Black, (5) Hicks placed Black
in the East Cleveland jail without probable cause, and
(6) Spotts told Hicks “to keep quiet about striking
Black.” (Trial tr. 430-431.)
{¶ 67} Although these admissions were automatically deemed admitted pursuant to Civ.R. 36(A), they
were consistent with Hicks’s trial testimony wherein
he admitted that he repeatedly struck Black’s head
while he was restrained in handcuffs. Hicks also described the policy and culture of violence in the East
Cleveland Police Department at that time. We, therefore, cannot say that the court’s recitation of these
admissions into the record, accompanied by an

App. 35
instruction to the jury that these facts have been conclusively established, constituted reversible error.
{¶ 68}
ruled.
F.

The fourth assignment of error is over-

Manifest Weight of the Evidence

{¶ 69} In the sixth assignment of error, appellants argue the jury’s verdict is not supported by sufficient evidence and is against the manifest weight of
the evidence.
{¶ 70} “ ‘In civil cases, as in criminal cases, the
sufficiency of the evidence is quantitatively and qualitatively different from the weight of the evidence.’ ”
Eastley v. Volkman, 132 Ohio St.3d 328, 2012-Ohio2179, 972 N.E.2d 517, paragraph two of the syllabus.
Sufficiency of the evidence is a test of adequacy and
asks “ ‘[w]hether the evidence is legally sufficient to
sustain a verdict * * * .’ ” Id. at ¶ 11, quoting State v.
Thompkins, 78 Ohio St.3d 380, 387, 678 N.E.2d 541
(1997). The relevant inquiry is whether, after viewing
the evidence in a light most favorable to the plaintiff,
the plaintiff presented some evidence going to every element of the claim. Vega v. Thomas, 8th Dist. Cuyahoga
No. 104647, 2017-Ohio-298, ¶ 9; State v. Jenks, 61 Ohio
St.3d 259, 574 N.E.2d 492 (1991), paragraph two of the
syllabus.
{¶ 71} In contrast to sufficiency, “ ‘[w]eight of
the evidence involves the inclination of the greater
amount of credible evidence.’ ” Eastley at ¶ 12, quoting

App. 36
Thompkins at 387, 678 N.E.2d 541. While “sufficiency
of the evidence is a test of adequacy as to whether the
evidence is legally sufficient to support a verdict as a
matter of law, * * * weight of the evidence addresses
the evidence’s effect of inducing belief.” State v. Wilson,
113 Ohio St.3d 382, 2007-Ohio-2202, 865 N.E.2d 1264,
¶ 25, citing Thompkins at 386-387.
{¶ 72} In reviewing a challenge to the manifest
weight of the evidence, the reviewing court must consider all the evidence in the record, the reasonable
inferences, and the credibility of the witnesses to determine “ ‘ “whether in resolving conflicts in the evidence, the jury clearly lost its way and created such a
manifest miscarriage of justice that the [judgment]
must be reversed and a new trial ordered.” ’ ” Eastley
at ¶ 20, quoting Thompkins at 387, 678 N.E.2d 541,
quoting State v. Martin, 20 Ohio App.3d 172, 485
N.E.2d 717 (1st Dist.1983). “In weighing the evidence,
the court of appeals must always be mindful of the presumption in favor of the trier of fact.” Id. at ¶ 21.
{¶ 73} Appellants’ argument seems directed at
the amount of damages awarded because they do not
analyze the evidence establishing the elements of any
specific claim, except to say that because Black did not
present any expert testimony, there was no evidence to
support the jury’s verdict. Appellants assert that the
jury was swayed by passion rather than by the weight
of evidence. We, therefore, do not address the evidence
supporting each individual claim; we address appellants’ argument that the damages award was not supported by the evidence.

App. 37
{¶ 74} As a preliminary matter, we note that
Black did not allege any claims that required medical
testimony or the submission of medical bills to support the damages award. As previously stated, Black
alleged claims for malicious prosecution, abuse of
process, spoliation of evidence, battery, false imprisonment, supervisory liability and a civil rights claim under 42 U.S.C. 1983. None of these claims required proof
of personal injury.3 Therefore, expert medical testimony was not required to establish these claims.
{¶ 75} Both physical and emotional injuries
caused by the constitutional deprivation are compensable under 42 U.S.C. 1983. Carey v. Piphus, 435 U.S.
247, 264, 98 S.Ct. 1042, 55 L.Ed.2d 252 (1978) (Mental
and emotional distress caused by the denial of procedural due process is compensable under 42 U.S.C.
1983.); Chainey v. Street, 523 F.3d 200, 216 (3d Cir.
2008) (Emotional distress injuries, such as mental anguish and suffering, are compensable under 42 U.S.C.
1983.); Day v. Vaughn, 56 F. Supp. 3d 1377, 1382
(S.D.G.A. 2014); Robinson v. St. Louis, E.D.Mo. No.
4:17-CV-156 PLC, 2020 WL 3412239 (June 22, 2020).
{¶ 76} And, no formula exists for the determination of damages resulting from constitutional violations brought pursuant to 42 U.S.C. 1983. See, e.g., King
3

Even Black’s battery claim did not require proof of a physical injury. “Battery is an intentional contact with another that is
harmful or offensive.” Stafford v. Columbus Bonding Ctr., 177
Ohio App.3d 799, 2008-Ohio-3948, 896 N.E.2d 191, ¶ 15 (10th
Dist.), citing Love v. Port Clinton, 37 Ohio St.3d 98, 99, 524 N.E.2d
166 (1988).

App. 38
v. Zamiara, 788 F.3d 207, 215 (6th Cir. 2015) (holding
that because there is no specific formula for calculating
compensatory damages, the amount is left to the sound
discretion of the fact); Heard v. Finco, 930 F.3d 772,
774 (6th Cir. 2019), quoting Walker v. Bain, 257 F.3d
660, 674 (6th Cir. 2001) (“So courts generally let the
jury decide how much money a plaintiff should receive
when he has suffered such ‘subjective injuries.’ ”);
Stokes v. Cetner, E.D.Mich. No. 98-CV-70639-DT, 2000
U.S. Dist. LEXIS (Jan. 28, 2000) (“No formula exists
to determine with precision compensatory or punitive
damages.”).
{¶ 77} Black had admissions that conclusively
established the elements of his claims. Moreover, Hicks
admitted at trial that Black was arrested and detained
without probable cause and that he repeatedly struck
Black while he was handcuffed. (Trial tr. 91, 93, 98).
Black’s mother and his former fiancée, Eryka Bey, described how the incident changed Black’s life. They testified that he sustained physical injuries, including
swelling to the head, followed by headaches and vision
problems. They also described emotional injuries, including anxiety, depression, paranoia, and social withdrawal. (Trial tr. 171-183, 196-209, 246-264.) After
defense counsel asked Black’s mother whether he received medical treatment for his injuries, she testified that Black underwent brain surgery to relieve
pressure created by a brain bleed. (Trial tr. 180-182.)
Therefore, Black presented competent, credible evidence that he was mentally and physically injured as
a result of appellants’ actions.

App. 39
{¶ 78} A jury’s determination of damages will
“not be set aside unless the damages awarded were so
excessive as to appear to have been awarded as a result
of passion or prejudice, or unless the amount is so manifestly against the weight of the evidence as to show a
misconception by the jury of its duties.” Berris v. Zaremba, 8th Dist. Cuyahoga No. 60043, 1992 Ohio App.
LEXIS 1906 (Apr. 9, 1992). Indeed, “it has long been
held that the assessment of damages is so thoroughly
within the province of the jury that a reviewing court
is not at liberty to disturb the jury’s assessment absent
an affirmative finding of passion and prejudice or a
finding that the award is manifestly excessive.” Moskovitz v. Mt. Sinai Med. Ctr., 69 Ohio St.3d 638, 655,
635 N.E.2d 331 (1994). And, “not only is the assessment of damages within the province of the jury, but
the mere size of the jury award alone is not sufficient
to prove passion and prejudice.” McNeil v. Kingsley,
178 Ohio App.3d 674, 2008-Ohio-5536, 899 N.E.2d
1054, ¶ 18 (3d Dist.), citing Elwer v. Carrol’s Corp., 3d
Dist. Allen No. 1-06-33, 2006-Ohio-6085, ¶ 14, citing
Pearson v. Cleveland Acceptance Corp., 17 Ohio App.2d
239, 245, 246 N.E.2d 602 (8th Dist.1969).
{¶ 79} A party seeking to challenge the jury’s determination of damages generally does so by filing a
motion under Civ.R. 59 for new trial and/or a motion
for remittitur in the trial court. As previously stated, a
litigant’s failure to raise an issue before the trial court
waives that party’s right to raise the issue on appeal.
State ex rel. Zollner v. Indus. Comm., 66 Ohio St.3d
276, 278, 611 N.E.2d 830 (1993), citing State ex rel.

App. 40
Gibson v. Indus. Comm., 39 Ohio St.3d 319, 530 N.E.2d
916 (1988).
{¶ 80} “ ‘ “[A]n appellate court will not consider
any error which counsel for a party complaining of the
trial court’s judgment could have called but did not call
to the trial court’s attention at a time when such error
could have been avoided or corrected by the trial
court.” ’ ” State v. Quarterman, 140 Ohio St.3d 464,
2014-Ohio-4034, 19 N.E.3d 900, ¶ 15, quoting State v.
Awan, 22 Ohio St.3d 120, 122, 489 N.E.2d 277 (1986),
quoting State v. Childs, 14 Ohio St.2d 56, 236 N.E.2d
545 (1968), paragraph three of the syllabus. Thus, by
failing to raise an issue to the trial court, an appellant
forfeits that issue on appeal. Risner v. Ohio Dept. of
Natural Resources, 144 Ohio St.3d 278, 2015-Ohio3731, 42 N.E.3d 718, ¶ 26.
{¶ 81} Appellants filed neither a motion for new
trial nor a motion for remittitur as permitted by Civ.R.
59. Thus, the trial court, who heard the heard the witnesses and weighed their credibility, did not have the
opportunity to consider whether the jury’s determination of damages was excessive. Appellants have therefore forfeited the issue for appeal.
{¶ 82}

The sixth assignment of error is overruled.
G.

Immunity

{¶ 83} Although the title of appellants’ eighth assignment of error purports to again challenge Black’s
claims for supervisory liability against Spotts, the

App. 41
argument is devoted to an immunity defense. Appellants argue they are entitled to immunity from liability for Black’s claims pursuant to the political
subdivision immunity provided in R.C. Chapter 2744
and the common law doctrine of qualified immunity.
{¶ 84} However, appellants failed to request jury
instructions on either political subdivision immunity
or qualified immunity.4 The failure to request a jury instruction on the law governing a particular defense
constitutes a waiver of the defense. Conti v. Corporate
Servs. Group, Inc., 30 F. Supp.3d 1051, 1072 (W.D.
Wash. 2014) (Defendants waived defense by failing
to request jury instruction on it.); Howe v. Akron,
E.D.Ohio No. 5:06CV2779, 2009 U.S. Dist. LEXIS
92255 (Oct. 2, 2009) (“The City waived any defense related to the timeliness of the EEOC charge when it
failed to request any jury instruction on the issue of
timeliness.”); U.S. v. Cote, 544 F.3d 88 (2d Cir. 2008)
(Finding that a defendant had “waived his statute of
limitations defense by failing to raise the issue prior to
or during his trial.”).
{¶ 85} Therefore, the eighth assignment of error
is overruled.
H.

Evidence of Black’s Surgery

{¶ 86} In the ninth assignment of error, appellants argue the trial court erred and should have
4

ment.

Appellants also never filed a motion for summary judg-

App. 42
granted a mistrial after Black’s lawyers disclosed a
photograph of Black’s head scar from an unrelated surgical procedure.
{¶ 87} However, appellants never moved for a
mistrial. A party who discovers he has been substantially prejudiced must make his objection and move for
a mistrial as soon as he discovers the grounds for that
motion. Cleveland v. Wade, 8th Dist. Cuyahoga No.
76652, 2000 Ohio App. LEXIS 3629 (Aug. 10, 2000), citing Yerrick v. E. Ohio Gas Co., 119 Ohio App. 220, 198
N.E.2d 472 (9th Dist.1964). The failure to request a
mistrial generally waives all but plain error. State v.
Wood, 9th Dist. Medina No. 06CA0044-M, 2007-Ohio2673, ¶ 23.
{¶ 88} “[I]n order for a court to find plain error in
a civil case, an appellant must establish (1) a deviation
from a legal rule, (2) that the error was obvious, and
(3) that the error affected the basic fairness, integrity,
or public reputation of the judicial process and therefore challenged the legitimacy of the underlying judicial process.” State v. Morgan, 153 Ohio St.3d 196,
2017-Ohio-7565, 103 N.E.3d 784, ¶ 40, citing Goldfuss,
79 Ohio St.3d 116, 121, 679 N.E.2d 1099 (1997).
{¶ 89} During the direct examination of Black,
his lawyer displayed a photograph of Black’s head following a surgery he had in 2015. The court noticed the
photograph before appellants’ counsel had the opportunity to object and ordered counsel to take it down.
However, the jury heard testimony from both Black
and his mother regarding Black’s 2015 surgery before

App. 43
counsel displayed the photograph. Indeed, appellants
“opened the door” to evidence of the surgery by asking
Black’s mother if and when Black had ever gone to the
hospital. (Trial tr. 180.) Black’s mother stated that he
went to the hospital sometime after he visited her
home after the incident, but she could not remember
the exact date. Appellants’ counsel continued to question her regarding which hospital Black went to and
the timing of his hospital visit. (Trial tr. 180.) Appellants’ counsel asked: “So, you just know that sometime
between 2012, he went to Cleveland Clinic and University?” (Trial tr. 180.) Black’s mother replied generally
in the affirmative. On redirect, Black’s mother testified
that Black went to the Cleveland Clinic and University
Hospitals complaining of pain in his head and that he
underwent surgery at University Hospitals.
{¶ 90} Black’s lawyers also questioned Black
about the nature of his surgery. Black testified that he
experienced internal bleeding inside his head and that
he had tubes placed in his head. (Trial tr. 259.) Appellants’ counsel did not object to this testimony.5 Therefore, even if the jury happened to see the photograph
during the brief period of time that it was displayed,
the photograph was cumulative to other evidence of
Black’s surgery, and it is unlikely that the photograph
5

At one point, appellants’ counsel objected to hearsay regarding what a doctor had told Black about his condition, and the
court sustained the objection. Appellants later objected again,
when Black made a statement regarding the cause of the brain
bleed. Thereafter, the court addressed the issue at a sidebar off
the record. But there was never any objection to Black’s testimony
about having had the surgery and having tubes placed in his ears.

App. 44
prejudiced the jury or affected the basic fairness, integrity, or public reputation of the judicial process.
{¶ 91} Therefore, the ninth assignment of error is
overruled.
I.

Statute of Limitations

{¶ 92} In the tenth assignment of error, appellants argue Black’s claims against them are barred by
the applicable statute of limitations.
{¶ 93} However, appellants failed to assert the
statute of limitations as an affirmative defense in their
answer. The failure to raise the statute of limitations
in an answer fatally waives the defense. Shury v.
Greenaway, 8th Dist. Cuyahoga No. 100344, 2014Ohio-1629, ¶ 22; Taylor v. Meridia Huron Hosp. of
Cleveland Clinic Health Sys., 142 Ohio App.3d 155,
157, 754 N.E.2d 810 (8th Dist.2000). Pursuant to Civ.R.
8(C), a party must assert an affirmative defense, including the statute of limitations defense, with specificity or it is waived.6
{¶ 94} Therefore, the tenth assignment of error is
overruled.

6

Even if the statute of limitations were not waived, Black
filed his complaint within one year of the incident. He voluntarily
dismissed the complaint and refiled it within the one-year time
period required by the savings statute for refiling.

App. 45
J.

Judicial Notice

{¶ 95} In the eleventh assignment of error, appellants argue the trial court erred by refusing to take judicial notice of an indictment filed against Black in
connection with the search of this vehicle following his
arrest in this case. Appellants sought to introduce evidence of the indictment to impeach Hicks’s testimony
that Black was arrested and detained without probable cause.
{¶ 96} The admission or exclusion of evidence
lies in the sound discretion of the trial court and a reviewing court will not reverse the trial court’s decision
absent an abuse of discretion. State v. Sage, 31 Ohio
St.3d 173, 180, 510 N.E.2d 343 (1987). An abuse of
discretion implies a decision that is unreasonable,
arbitrary, or unconscionable. State ex rel. DiFranco,
144 Ohio St.3d 571, 2015-Ohio-4915, 45 N.E.3d 987, at
¶ 13. When applying the abuse-of-discretion standard,
a reviewing court may not substitute its judgment for
that of the trial court. Vannucci v. Schneider, 2018Ohio-1294, 110 N.E.3d 716, ¶ 22 (8th Dist.).
{¶ 97} Evid.R. 201 governs judicial notice and
provides, in relevant part, that
A judicially noticed fact must be one not subject to reasonable dispute in that it is either
(1) generally known within the territorial jurisdiction of the trial court or (2) capable of accurate and ready determination by resort to
sources whose accuracy cannot reasonably be
questioned.

App. 46
Evid.R. 201(B). Therefore, “[t]he only facts subject to
judicial notice are those that are ‘not subject to reasonable dispute.’ ” State ex rel. Arnold v. Gallagher, 153
Ohio St.3d 234, 2018-Ohio-2628, 103 N.E.3d 818, ¶ 31,
quoting Evid.R. 201(B).
{¶ 98} Before being admissible, all evidence must
pass the threshold test for relevancy set forth in
Evid.R. 403. Evid.R. 403(A) provides that the trial
court must exclude relevant evidence “if its probative
value is substantially outweighed by the danger of unfair prejudice, of confusion of the issues, or of misleading the jury.” Therefore, even if something qualifies as
a “judicially noticed fact” under Evid.R. 201(B), it may
nevertheless be inadmissible under Evid.R. 403 if its
probative value is substantially outweighed by the
danger of unfair prejudice, confusion, or of misleading
the jury.
{¶ 99} The fact that Black was indicted does not
necessarily establish that there was probable cause for
his arrest or that Black did not suffer any constitutional violations. And, as Hicks explained, there was no
legitimate reason to justify Hicks repeatedly hitting
Black’s head while Black was restrained in handcuffs.
Moreover, the indictment was subsequently dismissed,
which suggests there may have been a problem with
probable cause. Both Hicks and O’Leary admitted that
they had no legitimate basis for stopping Black’s vehicle on the night of the incident. Thus, even if the police
found contraband in the car after it was stopped, the
stop was illegal, and any evidence discovered as a result of the illegal stop was inadmissible as evidence as

App. 47
“fruit of the poisonous tree.” Wong Sun v. U.S., 371 U.S.
471, 83 S. Ct. 407, 9 L.Ed.2d 441 (1963) (If the government obtains evidence through actions which violate
the constitutional prohibition against unreasonable
searches and seizures, such evidence must be excluded
at trial as fruit of the poisonous tree.).
{¶ 100} The admission of Black’s indictment into
evidence under these circumstances would have been
misleading and confusing to the jury because it would
likely distract them from the fact that Black’s constitutional rights were violated when he was illegally
stopped and beaten. Indeed, Black’s subsequent detention was also illegal even if the police found contraband
in his car since the discovery of the contraband resulted from the illegal stop. We, therefore, cannot say
that the trial court abused its discretion by excluding
of evidence Black’s indictment under the circumstances of this case.
{¶ 101}
ruled.
{¶ 102}

The eleventh assignment of error is overJudgment affirmed.

It is ordered that appellee recover from appellant
costs herein taxed.
The court finds there were reasonable grounds for
this appeal.
It is ordered that a special mandate be sent to the
common pleas court to carry this judgment into execution.

App. 48
A certified copy of this entry shall constitute the
mandate pursuant to Rule 27 of the Rules of Appellate
Procedure.
/s/ Eileen A. Gallagher
EILEEN A. GALLAGHER,
ADMINISTRATIVE JUDGE
EILEEN A. GALLAGHER, J., and
MICHELLE J. SHEEHAN, J., CONCUR

App. 49
APPENDIX B
Court of Appeals of Ohio, Eighth District
County of Cuyahoga
Nailah K. Byrd, Clerk of Courts
ARNOLD BLACK

COA NO. LOWER COURT NO.
108958 CV-14-826010

Appellee

COMMON PLEAS COURT

-vsDET. RANDY HICKS,
ET AL.

MOTION NO. 543169

Appellant
Date 01/12/21
Journal Entry
Motions by appellants for stay of execution of judgment and mandate of the Eighth District Court of Appeals, Cuyahoga County, pending review of the United
States Supreme Court is denied.
Judge Eileen A. Gallagher, Concurs
Judge Michelle J. Sheehan, Concurs
/s/ Eileen T. Gallagher
Eileen T. Gallagher
Presiding Judge

App. 50
APPENDIX C
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff

Case No. CV-14-826010

DET. RANDY HICKS,
ET AL

JOURNAL ENTRY

Defendant

Judge: JOHN D SUTULA
(Filed Aug. 15, 2019)

81 DISP.JURY TRIAL - FINAL
TRIAL ON THIS MATTER COMMENCED AUGUST
8, 2019, AND CONCLUDED AUGUST 12, 2019, BEFORE EIGHT JURORS AND TWO ALTERNATE JURORS. COURT REPORTER ELLEN RASSIE.
VERDICT FOR PLAINTIFF IN THE AMOUNT OF
$50,000,000.00 AS FOLLOWS:
$20,000,000.00 IN COMPENSATORY DAMAGES
AGAINST THE DEFENDANTS JOINT AND SEVERAL.
$15,000,000.00 IN PUNITIVE DAMAGES AGAINST
DEFENDANT DETECTIVE RANDY HICKS.
$15,000,000.00 IN PUNITIVE DAMAGES AGAINST
DEFENDANT CHIEF RALPH SPOTS.
EACH DEFENDANT TO BEAR THEIR/ITS OWN
COST.
IT IS SO ORDERED.
COURT COST ASSESSED AS DIRECTED
PURSUANT TO CIV R. 58(B), THE CLERK OF
COURTS IS DIRECTED TO SERVE THIS JUDGMENT IN A MANNER PRESCRIBED BY CIV.R. 5(B).

App. 51
THE CLERK MUST INDICATE ON THE DOCKET
THE NAMES AND ADDRESSES OF ALL THE PARTIES, THE METHOD OF SERVICE, AND THE
COSTS ASSOCIATED WITH THIS SERVICE.
[Illegible]
Judge Signature

Date

App. 52
APPENDIX D
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff

Case No: CV-14-826010

DET. RANDY HICKS,
ET AL

JOURNAL ENTRY

Defendant

Judge: JOHN D SUTULA
(Filed Aug. 15, 2019)

89 DIS. W/PREJ - FINAL
PURSUANT TO CIV. R. 41(A) PLAINTIFF ARNOLD
BLACK HEREBY VOLUNTARILY DISMISSES THE
CLAIM AGAINST DEFENDANT OFFICER JONATHAN O'LEARY ONLY, WITH PREJUDICE. THIS
CASE REMAINS PENDING AGAINST ALL OTHER
NAMED DEFENDANTS.
COURT COST ASSESSED AS DIRECTED.
PURSUANT TO CIV.R. 58(b), THE CLERK OF
COURTS IS DIRECTED TO SERVE THIS JUDGMENT IN MANNER PRESCRIBED BY CIV.R. 5(b).
THE CLERK MUST INDICATE ON THE DOCKET
THE NAMES AND ADDRESSES OF ALL PARTIES,
THE METHOD OF SERVICE, AND THE COSTS ASSOCIATED WITH THIS SERVICE.
[Illegible]
Judge Signature

Date

App. 53
APPENDIX E
The Supreme Court of Ohio
Arnold Black

Case No. 2020-1054

v.

ENTRY

Detective Randy Hicks, et al.

(Filed Nov. 10, 2020)

Upon consideration of the jurisdictional memoranda filed in this case, the court declines to accept
jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Cuyahoga County Court of Appeals; No. 108958)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

App. 54
APPENDIX F
The Supreme Court of Ohio
Arnold Black

Case No. 2020-1054

v.
Detective Randy Hicks, et al.

RECONSIDERATION
ENTRY
(Filed Dec. 29, 2020)

It is ordered by the court that the motion for reconsideration in this case is denied.
It is further ordered that appellee’s motion to
strike is denied.
(Cuyahoga County Court of Appeals; No. 108958)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

App. 55
APPENDIX G
The Supreme Court of Ohio
Arnold Black
v.
Del. Randy Hicks, et al.

Case No. 2018-1062
ENTRY
(Filed Oct. 24, 2018)

Upon consideration of the jurisdictional memoranda filed in this case, the court declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Cuyahoga County Court of Appeals; No. 105248)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

App. 56
APPENDIX H
Court of Appeals of Ohio
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA
-----------------------------------------------------------------------

JOURNAL ENTRY AND OPINION
No. 105248
-----------------------------------------------------------------------

ARNOLD BLACK
PLAINTIFF-APPELLEE
vs.
DET. RANDY HICKS, ET AL.
DEFENDANTS-APPELLANTS
===========================================================================================
JUDGMENT:
REVERSED AND REMANDED
===========================================================================================
Civil Appeal from the
Cuyahoga County Court of Common Pleas
Case No. CV-14-826010
BEFORE: Celebrezze, J., Laster Mays, P.J., and
Keough, J.
RELEASED AND JOURNALIZED: June 14, 2018
[BARCODE STAMP]

App. 57
ATTORNEY FOR APPELLANTS
Willa M. Hemmons
Director of Law, East Cleveland
14340 Euclid Avenue
Cleveland, Ohio 44112
ATTORNEYS FOR APPELLEE
Robert F. DiCello
Mark A. DiCello
Justin Hawal
DiCello Levitt & Casey
7556 Mentor Avenue
Mentor, Ohio 44060
David E. Weisblatt
Jackson Lewis P.C.
Park Center Plaza I
6100 Oak Tree Boulevard, Suite 400
Independence, Ohio 44131
Also Listed
Randy Hicks, pro se
1020 Lonetree Court
Brunswick, Ohio 44212
ON RECONSIDERATION1
FRANK D. CELEBREZZE, JR., J.:
{¶1} Defendants-appellants, East Cleveland Police
Officer Jonathan O’Leary, East Cleveland Police Chief
Ralph Spotts, the city of East Cleveland, and John
1

The original announcement of decision, Black v. Hicks, 8th
Dist. Cuyahoga No. 105248, 2018-Ohio-680, released February
22, 2018, is hereby vacated. This opinion, issued upon reconsideration, is the court’s journalized decision in this appeal. See App.R.
22(C); see also S.Ct.Prac.R. 7.01.

App. 58
Does 1-10 (collectively “appellants”), bring the instant
appeal challenging the jury’s verdict in favor of plaintiff-appellee, Arnold Black (“Black”), on Black’s claims
for malicious prosecution, abuse of process, spoliation,
battery, false imprisonment, supervisory liability, reckless/wanton/willful conduct pursuant to R.C. 2921.52,
and civil conspiracy. Appellants further challenge the
trial court’s dismissal of their cross-claim against defendant-appellee, Randy Hicks, a former East Cleveland Police Detective (“Hicks”). Appellants argue that
the trial court violated Civ.R. 39(A) and Loc.R. 21 by
conducting an ex parte jury trial, their constitutional
due process rights were violated when the trial court
failed to provide them notice of the trial date, and that
the trial court issued orders and conducted a jury trial
during the pendency of appeals that were inconsistent
with this court’s and the Ohio Supreme Court’s exercise of jurisdiction. After a thorough review of the record and law, this court reverses and remands for
further proceedings consistent with this opinion.
I.

Factual and Procedural History

{¶2} The instant matter arose from an incident
that occurred on April 28, 2012, during which Black alleged that appellants arrested him without probable
cause and used excessive force in doing so. On April 28,
2014, Black filed a complaint against Hicks and appellants in which he asserted claims for malicious
prosecution, abuse of process, spoliation, battery, false
imprisonment, supervisory liability, reckless/wanton/

App. 59
willful conduct pursuant to R.C. 2921.52, and civil conspiracy.
{¶3} On May 6, 2014, appellants filed an answer
and a cross-claim against Hicks, alleging that Hicks
was not acting as an agent of the East Cleveland Police
Department on April 28, 2012. On December 15, 2014,
Hicks, acting pro se, filed an answer to Black’s complaint and appellants’ cross-claim.
{¶4} On October 1, 2015, the trial court set the
matter for trial on April 11, 2016, at 9:00 a.m.
{¶5} On March 24, 2016, Black filed (1) a motion
for default judgment or, in the alternative, a motion to
preclude appellants from presenting evidence and witnesses at trial that were not disclosed during the exchange of discovery; (2) a motion in limine to exclude
character evidence; (3) a motion in limine to exclude
evidence regarding defendants’ inability to satisfy a
judgment; and (4) a motion in limine to exclude evidence in support of affirmative defenses.
{¶6} On April 4, 2016, the trial court cancelled the
trial set for April 11, 2016. Trial was rescheduled for
May 23, 2016.
{¶7} On April 19, 2016, the trial court issued an
order requiring appellants to respond to Black’s discovery requests on or before May 2, 2016. The trial court
indicated that appellants’ failure to respond to the discovery requests would result in sanctions, including
the exclusion of the evidence and witnesses at trial
that defendants failed to produce during discovery.

App. 60
{¶8} On April 20, 2016, the trial court vacated its
April 19, 2016 order and set a show cause hearing requiring appellants to show cause why they failed to respond to Black’s discovery requests. The trial court’s
journal entry stated that appellants’ failure to show
cause would result in sanctions, including appellants
being precluded from offering evidence, witnesses, and
arguments at trial that they failed to produce during
discovery.
{¶9} On May 6, 2016, appellants filed an appeal
challenging the trial court’s April 20, 2016 order. Black
v. Hicks, 8th Dist. Cuyahoga No. 104453 (“Black I”). On
May 10, 2016, this court dismissed the appeal for lack
of a final appealable order.
{¶10} On May 9, 2016, the trial court denied
Black’s motion for default judgment. The trial court
granted, however, Black’s motion to preclude appellants from offering evidence and witnesses at trial that
were not disclosed during discovery. The trial court
concluded that appellants failed to respond to Black’s
requests for discovery, failed to respond to Black’s motion to exclude evidence, and failed to provide a reason
or excuse for their failure to respond to discovery. On
the same date, the trial court granted Black’s motions
in limine to exclude character evidence, evidence regarding appellants’ inability to satisfy a judgment, and
evidence in support of affirmative defenses; the trial
court also granted Black’s request to have admissions
deemed admitted against Hicks.

App. 61
{¶11} On May 10, 2016, appellants filed an appeal
challenging the trial court’s May 9, 2016 orders. Black
v. Hicks, 8th Dist. Cuyahoga No. 104461 (“Black II”).
On May 24, 2016, this court dismissed the appeal for
lack of a final appealable order.
{¶12} On May 25, 2016, appellants filed an appeal
to the Ohio Supreme Court challenging this court’s dismissal in Black II. Black v. Hicks, Ohio Supreme Court
Case No. 2016-0805 (“Black III”). Appellants assert
that this appeal was perfected at approximately 9:36
a.m. The Ohio Supreme Court subsequently declined
to accept jurisdiction of the appeal and denied Black’s
motion for sanctions against appellants on September
14, 2016.
{¶13} The case was set for trial on May 23 and May
24, 2016. On both dates, trial was continued. Despite
the appeal pending in the Ohio Supreme Court, a jury
trial commenced on May 25, 2016, at approximately
11:50 a.m. Neither appellants nor counsel appeared in
court on May 23, 24, or 25.
{¶14} The jury trial concluded on May 31, 2016.
The jury returned a verdict in favor of Black, which the
trial court journalized on June 3, 2016. The trial court’s
judgment entry provides:
Trial start date May 25, 2016, and end date
May 31, 2016, before eight jurors and two
alternate jurors. * * * The jury finds
$10,000,000.00 (ten million dollars) in compensatory damages for [Black] against the following defendants arising out of the following

App. 62
claims: (1) for [Black] against defendant Detective Randy Hicks and defendant Officer
Jonathan O’Leary as to [Black’s] first claim
for violation of [Black’s] federal civil rights; (2)
for [Black] against defendant City of East
Cleveland as to [Black’s] second claim for municipal liability; (3) for [Black] against defendant Detective Randy Hicks and defendant
Officer Jonathan O’Leary as to [Black’s] third
claim for false imprisonment/arrest; (4) for
[Black] against defendant Detective Randy
Hicks and defendant Officer Jonathan
O’Leary as to [Black’s] fourth claim for battery; joint and several liability as to Claims 1,
2, 3 and 4[;] (5) for [Black] against defendant
Chief Spotts as to [Black’s] fifth claim for supervisory liability; and (6) for [Black] against
defendant Chief Spotts as to [Black’s] sixth
claim for spoilation.
Furthermore, the jury finds $12,000,000.00
(twelve million dollars) in punitive damages
for [Black] as follows: (1) for [Black] against
defendant Officer Jonathan O’Leary in the
amount of 1,000,000.00 (one million dollars)
as to [Black’s] first claim for violation of
[Black’s] federal civil rights, as to [Black’s]
third claim of false imprisonment/arrest, and
as to [Black’s] fourth claim for battery; and,
(2) for [Black] against defendant Chief Spotts
in the amount of $11,000,000.00 (eleven million dollars) as to [Black’s] fifth claim for supervisory liability and as to [Black’s] sixth
claim for [spoliation].

App. 63
{¶15} On June 15, 2016, appellants filed an appeal
challenging the trial court’s judgment. Black v. Hicks,
8th Dist. Cuyahoga No. 104613 (“Black IV”). On November 8, 2016, this court dismissed the appeal for
lack of a final appealable order, finding that judgment
was not entered on all of Black’s claims.
{¶16} On November 14, 2016, Black filed a notice
of voluntary dismissal of Counts 7 (reckless/wanton/
willful conduct pursuant to R.C. 2921.52) and 8 (civil
conspiracy). On June 20, 2017, Black filed a notice of
voluntary dismissal of Counts 7 and 8 of his complaint
with prejudice. On June 29, 2017, the trial court issued
a journal entry confirming that Black dismissed
Counts 7 and 8 of his complaint. The trial court indicated that these counts were dismissed with prejudice.
{¶17} On December 12, 2016, appellants filed an
appeal challenging the trial court’s judgment. Black v.
Hicks, 8th Dist. Cuyahoga No. 105248 (“Black V”). This
court dismissed the appeal, sua sponte, on March 21,
2017, due to appellants’ failure to file an appellate
brief. This court granted appellants’ motion to reinstate the appeal on March 28, 2017.
{¶18} In the instant appeal, appellants assign four
errors for review:
I. The lower court’s conduct of an ex parte
jury trial was in violation of Civ.R. 39(A) and
Loc.R. 21.0.
II. The lower court’s notices failed to provide reasonable, constructive, and/or actual
notice that trial was [set] for May 25, 2016;

App. 64
[a]ccordingly, appellants’ constitutional right
to due process was violated.
III. The lower court’s May [9], 2016, May
2[5], 2016 and J[uly] 7, 2016 orders must be
vacated as such rulings, entered during the
pendency of appeals, were not made in execution, and thus were inconsistent with the reviewing courts’ exercise of jurisdiction.
IV. The lower court lacked authority to conduct the May 25, 2016 ex parte jury trial, as
such trial proceeded during the pendency of
appeal to the Ohio Supreme Court.
II.
A.

Law and Analysis

Trial Court’s Jurisdiction

{¶19} We will address appellants’ third assignment of error first, because it is dispositive of the appeal. In the third assignment of error, appellants argue
that the trial court was without jurisdiction to issue
the May 9, 2016 orders, commence a jury trial on May
25, 2016, and dismiss appellants’ cross-claim on July 7,
2016. On the other hand, Black contends in his motion
for reconsideration that the appeal that appellants
filed in the Ohio Supreme Court did not divest the trial
court of jurisdiction because (1) appellants did not file
a motion for an immediate stay of this court’s holding
in Black II pursuant to S.Ct.Prac.R. 7.01(A)(3)(a), and
(2) the Ohio Supreme Court declined to accept appellants’ discretionary appeal. After reviewing the record,
we agree with appellants.

App. 65
{¶20} First, contrary to Black’s assertion, appellants were not required to file a motion for an immediate stay of this court’s holding in Black II S.Ct.Prac.R.
7.01(A)(1)(a) provides,
(i) To perfect a jurisdictional appeal from a
court of appeals to the Supreme Court as defined by S.Ct.Prac.R. 5.02(A), the appellant
shall file a notice of appeal in the Supreme
Court within forty-five days from the entry of
the judgment being appealed. * * * .
(ii) Except as provided by S.Ct.Prac.R.
7.01(A)(3), the appellant shall also file a memorandum in support of jurisdiction, in accordance with S.Ct.Prac.R. 7.02, at the time the
notice of appeal is filed.
{¶21} S.Ct.Prac.R. 7.01(A)(3)(a) provides,
In a jurisdictional appeal, if the appellant
seeks from the Supreme Court an immediate
stay of the court of appeals’ judgment that is
being appealed, the appellant may file a notice
of appeal in the Supreme Court without an
accompanying memorandum in support of jurisdiction, provided both of the following conditions are satisfied:
(i) A motion for stay of the court of appeals’
judgment is filed with the notice of appeal;
(ii) A date-stamped copy of the court of appeals’ opinion and judgment entry being appealed is attached to the motion for stay.
(Emphasis added.)

App. 66
{¶22} In this case, the record reflects that appellants perfected the jurisdictional appeal to the Ohio
Supreme Court on May 25, 2016—before the jury trial
commenced. Appellants filed a notice of appeal and a
memorandum in support of jurisdiction in the Ohio Supreme Court on May 25, 2016, challenging this court’s
dismissal in Black II. Pursuant to S.Ct.Prac.R.
7.01(A)(1)(a), by filing of the notice of appeal and memorandum in support of jurisdiction, appellants perfected the jurisdictional appeal from this court’s
judgment in Black II. Furthermore, because appellants
filed an accompanying memorandum in support of jurisdiction with the notice of appeal, appellants were
not required to file a motion for a stay of this court’s
judgment pursuant to S.Ct.Prac.R. 7.01(A)(3)(a).
{¶23} Accordingly, appellants’ failure to seek an
immediate stay of this court’s judgment in Black II or
file a motion for stay of this court’s judgment was inconsequential. The trial court was divested of jurisdiction when appellants perfected the jurisdictional
appeal to the Ohio Supreme Court.
{¶24} Additionally, we find no merit to Black’s argument that the trial court was not divested of jurisdiction because the Ohio Supreme Court had not
accepted appellants’ appeal at the time the jury trial
commenced on May 25, 2016, and ultimately declined
to accept appellants’ appeal for review.
It is well settled that “the filing of the notice
of appeal divests the trial court of jurisdiction
to proceed with the adjudication during the

App. 67
pendency of the appeal.” State ex rel. Electronic Classroom of Tomorrow v. Cuyahoga
Cty. Court of Common Pleas, 129 Ohio St.3d
30, 2011-Ohio-626, 950 N.E.2d 149, ¶ 16. With
respect to the trial court’s jurisdiction, it is
irrelevant that the appellate court later dismisses the action, after making the determination that the appeal was perfected from an
order that was not a final appealable one. Id.
The determination as to “the appropriateness
of an appeal lies solely with the appellate
court[.]” Id., quoting In re S.J., 106 Ohio St.3d
11, 2005-Ohio-3215, 829 N.E.2d 1207, ¶ 10-11.
Upon the filing of the appeal, the trial court is
without jurisdiction to proceed on the merits
of the remaining claims until the case is remanded by the appellate court. Story v. PriceStory, 8th Dist. Cuyahoga No. 94085, 2010Ohio-4675, ¶ 7.
(Emphasis added.) Sunshine L.P. v. C.A.S.T.L.E. High
School, Inc., 8th Dist. Cuyahoga No. 104912, 2017Ohio-1557, ¶ 4.
{¶25} “ ‘[O]nce an appeal is perfected, the trial
court is divested of jurisdiction over matters that are
inconsistent with the reviewing court’s jurisdiction to
reverse, modify, or affirm the judgment.’ ” Electronic
Classroom of Tomorrow at ¶ 13, quoting State ex rel.
Rock v. School Emps. Retirement Bd., 96 Ohio St.3d
206, 2002-Ohio-3957, 772 N.E.2d 1197, ¶ 8. In other
words, once a case has been appealed, the trial court
loses jurisdiction except to take action in aid of the appeal. State ex rel. Special Prosecutors v. Judges, Court

App. 68
of Common Pleas, 55 Ohio St.2d 94, 97, 378 N.E.2d 162
(1978).
{¶26} In support of his argument that the trial
court was not divested of jurisdiction when appellants
filed its appeal. Black III, in the Ohio Supreme Court,
Black directs this court, for the first time on reconsideration, to Master v. Chalko, 8th Dist. Cuyahoga No.
75973, 2000 Ohio App. LEXIS 2014 (May 11, 2000). In
Chalko, this court determined that the mere filing of
an appeal with the Ohio Supreme Court does not automatically stay the proceedings in the trial court. Id. at
18. This court held,
a trial court is not precluded from exercising
jurisdiction in a case where a notice of appeal
is filed with the Supreme Court from a judgment of the court of appeals until such time as
either a motion for immediate stay of the
court of appeals’ judgment is granted or when
the Supreme Court decides to allow a discretionary appeal.
Id. at 17. This court went on to explain that
S.Ct.Prac.R. II, Sec. 2(A)(3)(a)(ii)2 sets forth a procedure under which an appellant can seek an immediate
stay of an appellate court’s judgment—by filing a motion for stay contemporaneously with the notice of appeal. Id.
{¶27} As an initial matter, we note that Special
Prosecutors and its progeny, including Electronic
2

The rules were amended on September 29, 2017. The current version of this rule is set forth in S.Ct.Prac.R. 7.01(A)(3)(a).

App. 69
Classroom of Tomorrow and In re S.J., pertain to trial
courts being divested of jurisdiction upon the filing of
appeals in courts of appeals, rather than the filing of
appeals in the Ohio Supreme Court. Nevertheless, we
find that Black’s reliance on Chalko is misplaced.
{¶28} In State of Washington, 137 Ohio St.3d 427,
2013-Ohio-4982, 999 N.E.2d 661, the Ohio Supreme
Court held that “ ‘[a]n appeal is perfected upon the filing of a written notice of appeal. R.C. 2505.04. Once a
case has been appealed, the trial court loses jurisdiction except to take action in aid of the appeal. [Special
Prosecutors, 55 Ohio St.2d at 97, 378 N.E.2d 162.]’ ”
Washington at ¶ 8, quoting In re S.J., 106 Ohio St.3d
11, 2005-Ohio-3215, 829 N.E.2d 1207, at ¶ 9. Accordingly, in Washington, the Ohio Supreme Court extended the Special Prosecutors rationale—that a trial
court is divested of jurisdiction upon the filing of an
appeal in a court of appeals—to appeals filed in the
Ohio Supreme Court.
{¶29} This court applied the Washington rationale
in State v. Thomas, 8th Dist. Cuyahoga No. 103406,
2016-Ohio-8326. There, after being sentenced in 2014,
the defendant filed an appeal challenging the trial
court’s sentence. On February 5, 2015, this court vacated the trial court’s sentence and remanded the matter for resentencing.3 On March 23, 2015, the state filed
an appeal in the Ohio Supreme Court challenging this
court’s decision, which the court accepted on
3

State v. Thomas, 8th Dist. Cuyahoga No. 101202, 2015Ohio-415.

App. 70
September 16, 2015.4 After the state filed its notice of
appeal with the Ohio Supreme Court, the trial court
resentenced the defendant on July 30, 2015. The defendant filed an appeal challenging the sentence imposed at resentencing in August 2015.
{¶30} On appeal, this court requested the parties
to submit supplemental briefing on the issue of
whether, pursuant to Washington, the trial court
lacked jurisdiction to resentence the defendant after
the state filed its notice of appeal in the Ohio Supreme
Court. The state argued that the trial court had jurisdiction to resentence the defendant in July 2015 because the Ohio Supreme Court had not accepted the
state’s appeal. This court rejected the state’s argument
and explained that it was bound to follow Washington
because it was “the most recent Supreme Court case to
apply the rule regarding jurisdiction and the filing of a
notice of appeal.” Thomas at ¶ 13. Accordingly, this
court held that after the state filed its notice of appeal
in the Ohio Supreme Court in March 2015, the trial
court did not have jurisdiction to resentence the defendant in July 2015. Id.; see also Wells v. Park, 9th
Dist. Summit No. 27960, 2016-Ohio-5598 (the appellate court, in applying Washington, held that the trial
court did not have jurisdiction to rule on motions determining child support arrearage in June 2015 because appellant filed a notice of appeal in the Ohio

4

State v. Thomas, 148 Ohio St.3d 248, 2016-Ohio-5567, 70
N.E.3d 496.

App. 71
Supreme Court in February 2015 challenging a decision issued by the Ninth District).
{¶31} Based on the foregoing analysis, we find that
Chalko was implicitly overruled by the Ohio Supreme
Court in Washington and, thus, is no longer good law.
Accordingly, we will proceed to consider appellant’s arguments that the trial court was without jurisdiction
to issue the May 9, 2016 orders, commence a jury trial
on May 25, 2016, and dismiss appellants’ cross-claim
on July 7, 2016.
1.

May 9, 2016 Orders

{¶32} In the instant matter, appellants first argue
that the trial court was without jurisdiction to issue
the May 9, 2016 orders because Black I was pending.
On May 9, 2016, the trial court granted (1) Black’s motion to preclude appellants from offering evidence and
witnesses at trial that were not disclosed during discovery; (2) Black’s motions in limine to exclude evidence in support of affirmative defenses, character
evidence, and appellants’ inability to satisfy a judgment; and (3) Black’s motion to have admissions
deemed admitted.
{¶33} Appellants filed a notice of appeal in Black I
on May 6, 2016, challenging the trial court’s April 20,
2016 judgment order, which provided, in relevant part:
[Appellants] have failed to produce responses
to the discovery that [Black] served upon
them on 8-8-14 and 9-4-14. Failure to show
cause as to why these responses were not

App. 72
served and why discovery was never propounded upon [Black] shall result in sanctions as provided in Civil Rule 41(B) and
37(D) and will include precluding [appellants]
from offering at trial evidence, witnesses, argument or comment regarding the evidence
and witnesses they failed to so produce. A
show cause hearing is scheduled for May 2,
2016 @ 10 am.
This court dismissed the appeal on May 10, 2016 for
lack of a final appealable order.
{¶34} After reviewing the record, we find that the
trial court lacked jurisdiction to issue the May 9, 2016
orders. When the trial court issued these orders, Black
I was still pending. The May 9, 2016 orders were inconsistent with this court’s jurisdiction to reverse, modify,
or affirm the trial court’s April 20, 2016 judgment that
appellants appealed to this court.
{¶35} “An adjudication entered by a court without
jurisdiction is a nullity and is void.” Story, 8th Dist.
Cuyahoga No. 94085, 2010-Ohio-4675, at ¶ 7, citing
Fifth St. Realty Co. v. Clawson, 9th Dist. Lorain No.
94CA005996, 1995 Ohio App. LEXIS 2565 (June 14,
1995); Lambda Research v. Jacobs, 170 Ohio App.3d
750, 2007-Ohio-309, 869 N.E.2d 39, ¶ 22 (1st Dist.). Accordingly, the trial court’s May 9, 2016 orders are void.
2.

Jury Trial

{¶36} Appellants further contend that the trial
court was without jurisdiction to commence a jury trial

App. 73
on May 25, 2016, because appellants had perfected an
appeal to the Ohio Supreme Court.
{¶37} Appellants filed a notice of appeal in Black
II on May 10, 2016, challenging the trial court’s aforementioned May 9, 2016 orders granting Black’s motions in limine, to have matters admitted, and to
preclude appellants from offering evidence that was
not produced during discovery. On May 24, 2016, this
court dismissed Black II for lack of a final appealable
order.
{¶38} On May 25, 2016, appellants filed an appeal
in the Ohio Supreme Court challenging this court’s dismissal of Black II for lack of a final appealable order.
Black III. Although we are unable to determine the exact time that appellants’ notice of appeal was filed, appellants assert that they filed the notice of appeal at
approximately 9:36 a.m.
{¶39} We are also unable to determine the exact
time that the trial court commenced the jury trial. Appellants assert that the jury trial commenced at approximately 11:50 a.m., after the notice of appeal was
filed in the Ohio Supreme Court. Black offers no evidence to the contrary.
{¶40} After reviewing the record, we find that the
filing of the notice of appeal with the Ohio Supreme
Court divested the trial court of jurisdiction to proceed
on the merits of Black’s claims. Before the trial commenced, the appeal in the Ohio Supreme Court had already been filed, and was still pending. The trial court’s
commencement of the jury trial was inconsistent with

App. 74
the Ohio Supreme Court’s jurisdiction to reverse, modify, or affirm this court’s May 24, 2016 dismissal of
Black II for lack of a final appealable order that appellants appealed.
{¶41} We further find that the jury’s May 31, 2016
verdict, and the trial court’s June 3, 2016 order journalizing the verdict, are also void. The appeal in the
Ohio Supreme Court was pending from May 25, 2016
until September 14, 2016, when the court declined to
accept jurisdiction of the appeal.
3.

July 7, 2016 Order

{¶42} Finally, appellants argue that the trial court
was without jurisdiction to issue the July 7, 2016 order
dismissing appellants’ cross-claim.
{¶43} On May 3, 2016, Hicks filed a motion to dismiss appellants’ cross-claim pursuant to Civ.R. 41(B)
and (C) for failure to prosecute. Therein, Hicks argued
that he was unable to defend against the cross-claim
based on appellants’ failure to provide discovery to him
and Black. Specifically, Hicks asserted that appellants
failed to produce police reports, detective reports, and
dash camera footage. On July 7, 2016, the trial court
granted Hicks’s motion to dismiss appellants’ crossclaim.
{¶44} As noted above, appellants’ appeal to the
Ohio Supreme Court was pending from May 25, 2016
to September 14, 2016. When the trial court granted
Hicks’s motion to dismiss the cross-claim, the Ohio

App. 75
Supreme Court appeal was still pending. Because
Hicks’s motion to dismiss was premised on appellants’
failure to provide discovery to Hicks and Black, the
trial court’s order granting Hicks’s motion to dismiss
the cross claim was inconsistent with the Ohio Supreme Court’s jurisdiction to reverse, modify, or affirm
this court’s May 24, 2016 dismissal of Black II for lack
of a final appealable order that appellants appealed.
Accordingly, the trial court’s July 7, 2016 order is void.
{¶45} Black maintains that appellants’ May 6,
2016 and May 10, 2016 appeals to this court, and appellants’ May 25, 2016 appeal to the Ohio Supreme
Court did not divest the trial court of jurisdiction because appellants knew that the orders from which they
appealed were not final appealable orders. Black further contends that appellants filed the appeals for the
sole purpose of delaying the trial court proceedings.
{¶46} After reviewing the record, we find that appellants engaged in questionable conduct throughout
the trial court proceedings. Appellants failed to respond to Black’s and Hicks’s discovery requests, failed
to produce evidence requested by Black and Hicks, and
failed to appear for trial on multiple occasions. Most
importantly, there is no evidence in the record that appellants informed the trial court on May 25, 2016, that
they had filed an appeal in the Ohio Supreme Court
before the jury trial commenced.
{¶47} The record reflects that the May 25, 2016 notice of appeal in Black III was sent by ordinary U.S.
mail to Black’s counsel. The Ohio Supreme Court

App. 76
docket indicates that a copy of the notice of appeal in
Black III was sent to this court’s clerk of courts on May
26, 2016. This notice of appeal is reflected on this
court’s docket in Black II on May 31, 2016. The notice
of appeal to the Ohio Supreme Court is not, however,
reflected on the trial court’s docket. Had appellants
made the trial court aware of the appeal to the Ohio
Supreme Court, we presume that the trial court would
not have commenced the jury trial, which lasted five
days.
{¶48} If a party files an appeal for improper purposes, such as delaying the final resolution of the case,
or files a frivolous appeal, the party may be subject to
sanctions and/or disciplinary action. See, e.g., App.R. 23
(“[i]f a court of appeals shall determine that an appeal
is frivolous, it may require the appellant to pay reasonable expenses of the appellee including attorney fees
and costs.”).
{¶49} Nevertheless, even if appellants’ appeals
were frivolous or filed for improper purposes, when appellants perfected the appeals to this court and the
Ohio Supreme Court, the trial court was required to
stay the proceedings, except to take action in aid of the
appeals, until the resolution of the appeals. We must
emphasize that this unfortunate waste of judicial time
and resources could have been avoided had appellants
appeared in court on May 25, 2016, or informed the
trial court or Black’s counsel that the appeal to the
Ohio Supreme Court had been perfected.

App. 77
{¶50} For all of the foregoing reasons, appellants’
third assignment of error is sustained.
III.

Conclusion

{¶51} The trial court was divested of jurisdiction to
issue the May 9, 2016 orders because Black I was pending in this court. The trial court was divested of jurisdiction to commence a jury trial on Black’s claims, to
journalize the jury’s verdict, and to issue the July 7,
2016 order dismissing appellants’ cross-claim because
Black III was pending in the Ohio Supreme Court. Accordingly, these orders and the jury’s verdict are void
and must be vacated.
{¶52} This case essentially remains at the state of
the proceeding as it existed on May 10, 2016, when this
court dismissed Black I for lack of a final appealable
order. See Sunshine L.P., 8th Dist. Cuyahoga No.
104912, 2017-Ohio-1557, at ¶ 7. Based on our resolution of appellants’ third assignment of error, appellants’ first, second, and fourth assignments of error are
rendered moot.
{¶53} Judgment reversed and remanded for further proceedings.
It is ordered that appellants recover from appellee
costs herein taxed.
The court finds there were reasonable grounds for
this appeal.

App. 78
It is ordered that a special mandate be sent to said
court to carry this judgment into execution.
A certified copy of this entry shall constitute the
mandate pursuant to Rule 27 of the Rules of Appellate
Procedure.
/s/ Frank D. Celebrezze, Jr.
FRANK D. CELEBREZZE, JR.
ANITA LASTER MAYS, P.J.,
and KATHLEEN ANN
KEOUGH, J., CONCUR

App. 79
APPENDIX I
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY
ARNOLD BLACK

CASE NO: CV-14-826010

PLAINTIFF

JUDGE JOHN D SATULA

VS

DEFENADANT HICKS
MOTION TO DISMISS
CROSS-CLAIM per Civ.
R. 41(B) & C

CITY OF EAST
CLEVELAND
RANDY HICKS

Failure to Prosecute
(Filed May 3, 2016)

Now comes the defendant Randy Hicks, pro-se,
hereby moves this Court for order of dismissing the
cross claim by the City of East Cleveland, Defendant
Spotts and Defendant O’leary, defendants have filed
against Defendant Hicks.
1.

The City of East Cleveland Law director at
the time was Ron Riley. Defendant Hicks requested documents for the police report, detective’s reports, and the video of the dash
cam. On 8-6-2014.

2.

As of 5-2-2016 at the final pre trail, no discovery has been provided to Defendant Hicks on
the cross claim.

3.

The City of East Cleveland is representing
both Spotts and Oleary.

App. 80
4.

The City of East Cleveland failing to provide
Defendant Hicks with any discovery, limits or
even gives the ability to Defendant Hicks to
provide a defense against the cross claim for
the City of East Cleveland, Spotts or Oleary.

5.

Defendant Hicks did not arrest Plaintiff Black
defendant Oleary made the arrest, did not
complete a report, Defendant Hicks is unable
to find out who wrote the report or housed
Plaintiff Black in the East Cleveland City
Jail.

6.

On 5-2-2016 at the final pre trail Judge John
D Sutala, issued sanctions against the City of
East Cleveland from putting on a defense for
failing to provide discovery to Plaintiff Black.

7.

With no action taken by the City of East
Cleveland to provide discovery to Plaintiff
Black or Defendant Hicks, Defendant Hicks is
unable to put a defense against the cross
claim from the city.

8.

The City of East Cleveland, Spotts or Oleary
have failed to prosecute any claim to the cross
complaint filed against Defendant Hicks.
Respectfully Submitted,
/s/ Randy Hicks
Randy Hicks, Pro-Se

App. 81
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY
ARNOLD BLACK

CASE NO: CV-14-826010

PLAINTIFF

JUDGE JOHN D SATULA

VS

ORDER

CITY OF EAST
CLEVELAND
RANDY HICKS
This matter comes before this court on Defendant
Hicks motion to Dismiss City of East Cleveland, Defendant Spotts and Defendant Oleary Cross Claim per
Civil Rule 41 (B) & (C) for Failure to Prosecute. The
decision to dismiss an action pursuant to Civil Rule
41(8)1 lies within the discretion of the trail court.
Jones V Hartranft, 78 Ohio St 3d 68, 371, 1997-Ohio203 678 N.E. 2d 530.
After careful consideration of the briefing, exhibits,
dockets and issues brought to light this court exercise
its discretion and GRANTS Defendant Hicks motion as
follows:
1.

This court notes that as of the final pretrial
(5-2-2016) and for the past two years in this
case The City of East Cleveland, Defendant
Spotts and Defendant Oleary have failed to
participate in discovery, despite moving for
additional time twice, which the court has

App. 82
grants and both motions to complete discovery. See e.g Hanko v Nestor 2012 Ohio 4488
16.
2.

Defendants City of East Cleveland, Defendant Spotts and Defendant Oleary have seven
days from the dates of this order to move the
court and show good cause as to why its/theirs
cross-claim ought to be dismissed. Because
the trail is schedule for May 23, 2016, no further extensions shall be permitted.

3.

Failure to show timely cause results in an immediate dismissal of the cross claim with prejudice.

4.

Defendant Hicks shall have seven days to file
a reply to brief Defendant motion to preserve
the cross claim, if any is filed.

IT IS SO ORDERED
DATE
Judge John Sutula

App. 83
CERTIFICATE OF SERVICE
Undersigned hereby certifies that a true and accurate copy of the forgoing was served by regular U.S.
mail, postage prepaid, this 3rd day of May, 2016 upon:
Robert DiCello
7556 Mentor Ave.
Mentor, Ohio 44060
City of East Cleveland
c/o Willa Hemmons
14320 Euclid Ave.
East Cleveland, Ohio 44112
/s/ Randy Hicks/CBC
Randy Hicks, Pro Se

App. 84
APPENDIX J
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 1

All may participate.
FIRST CLAIM: EXCESSIVE FORCE –
DETECTIVE RANDY HICKS
Has Plaintiff Arnold Black proven by a preponderance of the evidence that Defendant Detective Randy
Hicks violated Arnold Black’s Constitutional Right to
be free from excessive force during the arrest and/or
imprisonment of Arnold Black?
Circle your answer in ink: [Yes] or

No

/s/ [Illegible]
1

/s/ [Illegible]
2 [5] [Initials Illegible]

/s/ [Illegible]
3 [2] [Initials Illegible]

/s/ [Illegible]
4 [7] [Initials Illegible]

App. 85
/s/ [Illegible]
5 [3] [Initials Illegible]

/s/ [Illegible]
6

/s/ [Illegible]
7 [4] [Initials Illegible]

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #1 is “yes” move to Jury Interrogatory #1A.
Only those answering “yes” to interrogatory #1 participate in answering #1A.
If the answer of six or more jurors to this Jury Interrogatory #1 is “no” move to Jury Interrogatory #2.
If six jurors cannot agree on an answer to Jury Interrogatory #1, report this to the court.

App. 86
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 1A

Only those answering “yes” to Interrogatory #1
may answer
FIRST CLAIM: EXCESSIVE FORCE –
DETECTIVE RANDY HICKS
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that the conduct of Defendant Detective Randy Hicks was a proximate cause of Plaintiff
Arnold Black’s injuries?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

No

App. 87
/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #1A is either “yes” or “no” move to Jury Interrogatory #2.
If six jurors cannot agree on an answer to Jury Interrogatory #1A, report this to the court.

App. 88
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 2

ALL may participate.
SECOND CLAIM: BATTERY –
DETECTIVE RANDY HICKS
Has Plaintiff Arnold Black proven by a preponderance of the evidence that Defendant Detective Randy
Hicks committed a battery on Plaintiff Arnold Black?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

No

App. 89
If the answer of six or more jurors to this Jury Interrogatory #2 is “yes” move to Jury Interrogatory #2A,
Only those answering “yes” to interrogatory #2 participate in answering #2A.
If the answer of six or more jurors to this Jury Interrogatory #2 is “no” move to Jury Interrogatory #3.
If six jurors cannot agree on an answer to Jury Interrogatory #2, report this to the court.

App. 90
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 2A

Only those answering “yes” to Interrogatory #2
may answer
PROXIMATE CAUSE
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that the conduct of Defendant Detective Randy Hicks was a proximate cause of Plaintiff
Arnold Black’s injuries?
Circle your answer in ink: [Yes] or

No

/s/ [Illegible]
1

/s/ [Illegible]
2 [6] [Initials Illegible]

/s/ [Illegible]
3

/s/ [Illegible]
4

App. 91

5

/s/ [Illegible]
6 [2] [Initials Illegible]

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #2A is either “yes” or “no” move to Jury Interrogatory #3.
If six jurors cannot agree on an answer to Jury Interrogatory #2A, report this to the court.

App. 92
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 3

ALL may participate.
THIRD CLAIM: FALSE ARREST/
IMPRISONMENT – DETECTIVE RANDY HICKS
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that Detective Randy Hicks committed
a false arrest and/or imprisonment of Plaintiff Arnold
Black?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

No

App. 93
/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #3 is “yes” move to Jury Interrogatory #3A.
Only those answering “yes” to interrogatory #3 participate in answering #3A.
If the answer of six or more jurors to this Jury Interrogatory #3 is “no” move to Jury Interrogatory #4.
If six jurors cannot agree on an answer to Jury Interrogatory #3, report this to the court.

App. 94
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 3A

Only those answering “yes” to Interrogatory #3
may answer
PROXIMATE CAUSE
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that the conduct of Defendant Randy
Hicks was a proximate cause of Plaintiff Arnold Black’s
injuries?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

No

App. 95

5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #3A is either “yes” or “no” move to Jury Interrogatory #4.
If six jurors cannot agree on an answer to Jury Interrogatory #3A, report this to the court.

App. 96
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 4

ALL may participate.
FOURTH CLAIM: SUPERVISORY LIABILITY –
DETECTIVE RANDY HICKS
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that the deprivation of his Constitutional Rights took place at the direction or with the
knowledge, acquiescence, or consent of Defendant Detective Hicks?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

No

App. 97
/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #4 is “yes” move to Jury Interrogatory #4A.
Only those answering “yes” to interrogatory #4 participate in answering #4A.
If the answer of six or more jurors to this Jury Interrogatory #4 is “no” move to Jury Interrogatory #5.
If six jurors cannot agree on an answer to Jury Interrogatory #4, report this to the court.

App. 98
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 4A

Only those answering “yes” to Interrogatory #4
may answer
PROXIMATE CAUSE
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that the conduct of Defendants Detective Randy Hicks was a proximate cause of Plaintiff
Arnold Black’s injuries?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

No

App. 99

5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #4A is either “yes” or “no” move to Jury Interrogatory #5.
If six jurors cannot agree on an answer to Jury Interrogatory #4A, report this to the court.

App. 100
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO.5

ALL may participate.
FIFTH CLAIM: SUPERVISORY LIABILITY –
CHIEF RALPH SPOTTS
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that the deprivation of his Constitutional Rights took place at the direction or with the
knowledge, acquiescence, or consent of Defendant
Chief Ralph Spotts?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

No

App. 101
/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #5 is “yes” move to Jury Interrogatory #5A.
Only those answering “yes” to interrogatory #5 participate in answering #5A.
If the answer of six or more jurors to this Jury Interrogatory #5 is “no” move to Jury Interrogatory #6.
If six jurors cannot agree on an answer to Jury Interrogatory #5, report this to the court.

App. 102
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 5A

Only those answering “yes” to Interrogatory #5
may answer
PROXIMATE CAUSE
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that the conduct of Chief Ralph Spotts
was a proximate cause of Plaintiff Arnold Black’s injuries?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

No

App. 103
/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #5A is either “yes” or “no” move to Jury Interrogatory #6.
If six jurors cannot agree on an answer to Jury Interrogatory #5A, report this to the court.

App. 104
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 6

ALL may participate.
SIXTH CLAIM: CITY POLICY CAUSING
CONSTITUTIONAL VIOLATION
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that Defendant City of East Cleveland
through its policy makers, the Chief of Police and/or
the Mayor, established or promoted a policy(s), practice(s), or custom(s) that deprived Plaintiff Arnold
Black of his Constitutional Right(s)?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

No

App. 105
/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #6 is “yes” move to Jury Interrogatory #6A.
Only those answering “yes” to interrogatory #6 participate in answering #6A.
If the answer of six or more jurors to this Jury Interrogatory #6 is “no” move to Jury Interrogatory #7.
If six jurors cannot agree-an an answer to Jury Interrogatory #6, report this to the court.

App. 106
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 6A

Only those answering “yes” to Interrogatory #6
may answer
PROXIMATE CAUSE
Has Plaintiff Arnold Black proven by a preponderance
of the evidence that the policy and/or custom of Defendant East Cleveland was/were a proximate cause of
Plaintiff Arnold Black’s injuries?
Circle your answer in ink: [Yes] or
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

No

App. 107
/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

If the answer of six or more jurors to this Jury Interrogatory #6A is either “yes or “no” move to Jury Interrogatory #7.
If six jurors cannot agree on an answer to Jury Interrogatory #6A, report this to the court.

App. 108
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 7

COMPENSATORY DAMAGES
If you answered yes to any one or more of the sets of
Interrogatories 1 and 1A; and/or 2 and 2A; and/or 3 and
3A; and/or 4 and 4A; and/or 5 and 5A; and/or 6 and 6A;
state the total amount of compensatory damages you
award Plaintiff Arnold Black: ALL may participate.
$ 20,000,000.00
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

App. 109
Once six or more of you have agreed on an amount to
FULLY and FAIRLY compensate the Plaintiff in this
Jury Interrogatory #7, move on to Jury Interrogatory
#8.

App. 110
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 8

PUNITIVE DAMAGES –
DETECTIVE RANDY HICKS
Have you answered “yes” to any of Jury Interrogatories
#1-4? ALL may participate.
Circle your answer in ink: [Yes] (answered
yes at least once) or No (never answered
yes).
If you answered “no,” enter zero on the damages line
below. Then proceed to Jury Interrogatory #9. But if
your answered “yes,” state the total amount of Punitive
Damages against Defendant Detective Randy Hicks:
Federal Claim 1 & 4 by preponderance of the evidence:
$ 7,500,000.00
State Claim 2 & [3] 4 by clear
and convincing evidence

$ 7,500,000.00

Total punitive damages (add
State and Federal amounts:

$ 15,000,000

App. 111
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

Once six or more of you have agreed upon an amount of
punitive damages against Defendant Hicks, proceed to
Jury Interrogatory #9.
If six jurors cannot agree on an amount for Jury Interrogatory #8, report this to the court.

App. 112
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 9

PUNITIVE DAMAGES –
CHIEF RALPH SPOTTS
Have you answered “yes” to any of Jury Interrogatories
#5? ALL may participate.
Circle your answer in ink: Yes (answered yes
at least once) or No (never answered yes).
If you answered “no,” enter zero on the damages line
below. But if your answered “yes,” state the total
amount of Punitive Damages against Defendant Chief
Ralph Spotts by preponderance of evidence:
$ 15,000,000.
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

App. 113
/s/ [Illegible]
5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

Once six or more of you have agreed upon an amount of
punitive damages against Defendant Hicks, proceed to
Jury Interrogatory #10.
If six jurors cannot agree on an amount for Jury Interrogatory #9, report this to the court.

App. 114
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
JURY INTERROGATORY NO. 10

DAMAGES TOTAL
Please itemize Plaintiff ’s damages as follows:
1. Compensatory Damages from
Jury Interrogatory #7:
$ 20,000,000.00
2. Punitive Damages against
Detective Hicks from Jury
Interrogatory #8:

$ 15,000,000.00

3. Punitive Damages against
Chief Spans from fury Interrogatory #9:

$ 15,000,000.00

4. Add lines 1, 2, and 3 of this
Interrogatory (Damages Total) $ 50,000,000.00

App. 115
Place the amount of Damages Total from #4 above on
the General Verdict Form for Plaintiff.
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

Once six or more have signed here, proceed to and sign
the General Verdict Form in favor of Plaintiff and insert upon that Verdict Form the Damages Total from
line 4 above.

App. 116
IN THE COMMON PLEAS COURT
CUYAHOGA COUNTY, OHIO
ARNOLD BLACK
Plaintiff,
-vsDETECTIVE RANDY
HICKS, et al.,
Defendants.

)
)
)
)
)
)
)
)

CASE NO.:
CV-14-826010
JUDGE:
JOHN D. SUTULA
GENERAL VERDICT
FORM IN FAVOR OF
PLAINTIFF

We the Jury, being duly impaneled, upon concurrence of the undersigned Jurors, being not less than
three-fourths of the whole number thereof, do hereby
find in favor of Plaintiff Arnold Black in the amount of:
$ 50,000,000.00
(Damages Total)
/s/ [Illegible]
1

/s/ [Illegible]
2

/s/ [Illegible]
3

/s/ [Illegible]
4

5

/s/ [Illegible]
6

/s/ [Illegible]
7

/s/ [Illegible]
8

App. 117
APPENDIX K
CASE INFORMATION
CR-12-562242-A THE STATE OF OHIO vs.
ARNOLD BLACK
07/19/2012 07/20/2012 N/A JE
CASE IS DISMISSED WITHOUT PREJUDICE.
COURT FINDS PROBABLE CAUSE FOR
INDICTMENT. 07/19/2012 CPDEJ 07/19/2012
08:28:36

App. 118
APPENDIX L
Court of Appeals of Ohio, Eighth District
County of Cuyahoga
Nailah K. Byrd, Clerk of Courts
ARNOLD BLACK
-vs-

COA NO. LOWER
COURT NO.
Appellee
104453 CV-14-826010

DET. RANDY HICKS, ET AL COMMON PLEAS
COURT
Appellant
MOTION NO. 496127
Date 05/10/16
Journal Entry
Sua sponte, the appeal is dismissed for lack of a final
appealable order per R.C. 2505.02.
Judge KATHLEEN
ANN KEOUGH,
Concurs

/s/ Larry A. Jones, Sr.
LARRY A. JONES, SR.
Administrative Judge

App. 119
APPENDIX M
Court of Appeals of Ohio, Eighth District
County of Cuyahoga
Nailah K. Byrd, Clerk of Courts
ARNOLD BLACK
-vs-

COA NO. LOWER
COURT NO.
Appellee
104461 CV-14-826010

DET. RANDY HICKS, ET AL COMMON PLEAS
COURT
Appellant
MOTION NO. 496638
Date 05/24/16
Journal Entry
Sua sponte, the appeal is dismissed per R.C. 2505.02
for lack of a final appealable order.
Judge EILEEN A.
GALLAGHER,
Concurs

/s/ Kathleen Ann Keough
KATHLEEN ANN KEOUGH
Presiding Judge

App. 120
APPENDIX N
The Supreme Court of Ohio
Arnold Black
v.
Det. Randy Hicks et al.

Case No. 2016-0805
ENTRY
(Filed Sep. 14, 2016)

Upon consideration of the jurisdictional memoranda filed in this case, the court declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
It is further ordered that the motion of Arnold
Black for sanctions against City of East Cleveland,
Chief of Police Ralph Spotts, Officer O’Leary, and John
Does 1-10 is denied.
(Cuyahoga County Court of Appeals; No. 104461)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

